,*

t

4

:

}

APPENDIX

•: •

B Judgment
i

i

:

'"xxxx
21-30098

i

Case 2:17-cv-01876-JCC Document 12 Filed 06/15/18 Page 1 of 1

UNITED STATES DISTRICT COURT
WESTERN DISTRICT OF WASHINGTON
AT SEATTLE
n
JUDGMENT IN A CIVIL CASE

GEORGE VERKLER,

CASE NO. C17-1876-JCC

Petitioner,
v.
UNITED STATES OF AMERICA,
Respondent.
'
i

:

__

Jury Verdict. This action came before the Court for a trial by jury. The issues have been
tried and the jury has rendered its verdict.

X

Decision by Court. This action came to consideration before the Court. The issues have
been considered and a decision has been rendered.

THE COURT HAS ORDERED THAT:
Petitioner’s § 2255 motion is DENIED. The Clerk is DIRECTED to close this case.
DATED this 15th day of June 2018.
WILLIAM M. MCCOOL
Clerk of Court
/s/ Tomas Hernandez
Deputy Clerk

XXXXl

21-30098

i

2

A0245D

(Rev. 09/19) Judgment m a Criminal Case For Revocations
Slicct 1

United States District Court
Western District of Washington
UNITED STATES OF AMERICA
Vf

George Verkler

JUDGMENT IN A CRIMINAL CASE
(For Revocation of Probation or Supervised Release)
Case Number: 2:15CR00041-1
USM Number;

3024U086

Thomas Coe
Defendant's Attorney

THE DEFENDANT:
□ admitted guilt to violation^)
gO was found in violation(s)

___ of the petitions dated
#1

after denial of guilt.

The defendant is adjudicated guilty of these offenses:
Violation Number
1.

Nature ofViolation
Failure to make monthly payments towards monetary obligations

Violation Ended
June 4; 2019

The defendant is sentenced as provided in pages 2 through 4 of this judgment Die sentence is imposed pursuant to
the Sentencing Reform Act of 1984.
□ The defendant has not violated condition(s)

and is discharged as to such violation^).

Il is ordered that the defendant must notify the United States attorney for this district within 30 days of any change of name, residence,
or mailing address until all fines, restitution, costs, and special assessments imposed by this judgment are fully paid. If ordered to pay
restitution, the defendant must notify the court and United States Attorney of material changes m economic circumstances.
Francis Franze-Nakamura
Assistant United States Attorney
Date of Imposition of Judgment
Signature of Judge

John C. Coughenour, United States District Judge
Name and Tide of Judge
Date

XXXX11

21-30098

i

A0245D

(Rev. 09/1$) Judgment in n Criminal Case For Revocations
Sheet 2 — rmprisonment
Judgment — Page 2 of 4

DEFENDANT:
CASE NUMBER:

George Verkler
2:15CR0004M

IMPRISONMENT
The defendant is hereby committed to the custody of the United States Bureau of Prisons to be imprisoned for a total term of:
Time Served with no term of supervision to follow
□

The court makes the following recommendations to the Bureau of Prisons:

□ The defendant is remanded to the custody of the United States Marshal.
□ The defendant shall surrender to the United States Marshal for this district:

□ at

□ a.m.

CUp.m. on__________________________________ .

□ as notified by the United States Marshal.
□ The defendant shall surrender for service of sentence at the institution designated by the Bureau of Prisons:
□ before 2 p.m. on

_________________ _

•

□ as notified by the United States Marshal.
□ as notified by the Probation or Pretrial Services Office.
RETURN
I have executed this judgment as follows:

Defendant delivered on
at

to
, with a certified copy of this judgment.

UNITED STATES MARSHAL
By
DEPUTY UNITED STATES MARSHAL

XXXXlll

21-30098

!
a.

A0245D

(Rev. 09/19) Judgment m a Criminal Case For Revocations
Sheet 5 — Crunmai Monetary Penalties
Judgment — Page 3 of 4

DEFENDANT:
CASE NUMBER:

George Verkler
2:15CR0004M

CRIMINAL MONETARY PENALTIES
The defendant must pay the total criminal monetary penalties under the schedule of payments on Sheet 6.

TOTALS

Assessment
$ 400.00

Restitution
$ 203,982.96

Fine
$ 0

AVAA Assessment*
S N/A

JVTA Assessment”*
$ N/A.

. An Amended Judgment in a Criminal Case (A O 245C)

□

Tlie determination of restitution is deferred until
will be entered after such determination.

Q

The defendant must make restitution (including community restitution) to the following payees in the amount listed below.
if the defendant makes a partial payment, each payee shall receive an approximately proportioned payment, unless specified
otherwise in the priority order or percentage payment column below. However, pursuant to 18 U.S.C. § 3664(i), all nonfederal
victims must be paid before (he United States is paid.

Name of Payee

Total Loss***

Washington State Employment
Security Department
Oregon Employment Department

TOTALS

Restitution Ordered

Priority or Percentage

$97,396,00
$139,932,00

S 0.00

$237,328.00

[Hi

Restitution amount ordered pursuant to plea agreement $

237,328.00_______________

□

The defendant must pay interest on restitution and a fine of more than $2,500, unless the restitution or fine is paid in full before
the fifteenth day after the date of (he judgment, pursuant to 18 U.S.C. § 3612(f). All of the payment options on Sheet 6 may be
subject to penalties for delinquency and default, pursuant to 18 U.S.C. § 3612(g).

0

The court determined that the defendant does not have the ability to pay interest and it is ordered that:
0 the interest requirement is waived for the □ fine
0 restitution
□ the interest requirement for the □ fine
Q restitution is modified as follows:

0

The court finds the defendant is financially unable and is unlikely to become able to pay a fine and, accordingly, the imposition
of a fine is waived.

* Amy, Vicky, and Andy Child Pornography Victim Assistance Act of 2018^ Pub. L. No. 115-299.
** Justice for Victims of Trafficking Act of 2015, Pub. L. No. 114-22.
*** Findings for the total amount of losses are required under Chapters 109A, 110,110A,and 113A of Title 18 for
offenses committed on or after September 13, 1994, but before April 23, 1996.

XXXX1V

21-30098

A0245D

(Rev. 09/19) lodgment in a Crinrinol Case For Revocations
Sheet 6—Schedule of Payments
Judgment—Page 4 of4

DEFENDANT:
CASE NUMBER:

George Verkler
2:15CR000414
SCHEDULE OF PAYMENTS

Having assessed the defendant’s ability to pay, payment of the total criminal monetary penalties is due as follows:
e
0 PAYMENT IS DUE IMMEDIATELY. Any unpaid amount shall be paid to
Clerk's Office, United States District Court, 700 Stewart Street, Seattle, WA 98101.
(El

During the period of imprisonment, no less than 25% of their inmate gross monthly income or $25.00 per quarter,
whichever is greater, to be collected and disbursed in accordance with the Inmate Financial Responsibility Program.

IH1 During the period of supervised release, m monthly installments amounting to not less than 10% of the defendant's gross
monthly household income, to commence 30 days after release from imprisonment.
□

During the period of probation, in nionthly installments amounting to not less than 10% of the defendant's gross monthly
household income, to commence 30 days after the date of this judgment.

The payment schedule above is the minimum amount that die defendant is expected to pay towards the monetary
penalties imposed by the Court. The defendant shall pay more than the amount established whenever possible. The
defendant must notify the Court, the United States Probation Office, and the United States Attorney's Office of any
material change in the defendant's financial circumstances that might affect the ability to pay restitution.
Unless the court has expressly ordered otherwise* if this judgment imposes imprisonment, payment of criminal monetary
penalties is due during the period of imprisonment AH criminal monetary penalties, except those payments made through
the Federal Bureau of Prisons' Inmate Financial Responsibility Program are made to the United States District Court,
Western District of Washington. For restitution payments, the Clerk ofthe Court is to forward money received to the
party(ies) designated to receive restitution specified on the Criminal Monetaries (Sheet 5) page.
The defendant shall receive credit for all payments previously made toward any criminal monetary penalties imposed.
□

Joint and Several
Case Number
Defendant and Co-Defendant Names
(including defendant number)

Total Amount

Joint and Several
Amount

Corresponding Payee,
if appropriate

□ . The defendant shall pay the cost of prosecution.
□

The defendant shall pay the following court cost(s):

(HI

The defendant shall forfeit the defendant’s interest in the following property to the United States:
As indicated in the preliminary order of forfeitore.-

Paymcnts shall be applied in the following order. (1) assessment, (2) restitution principal, (3) restitution interest, (4) AVAA assessment,
(5) fine principal, (6) fme interest, (7) community restitution, (8) JVTA Assessment, (9) penalties, and (10) costs, including cost of
prosecution and court costs.

xxxxv
21-30098

i

V

UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT

FILED
JUN 10 2021
MOLLY C. DWYER, CLERK
U.S. COURT OF APPEALS

*

UNITED STATES OF AMERICA

No. 21-30098

Plaintiff - Appellee,

D.C-. No. 2:15-cr-00041-JCC~l
U.S. District Court for Western
Washington, Seattle

v.
GEORGE VERKLER,

MANDATE
Defendant - Appellant.

The judgment of this Court, entered May 19, 2021, takes effect this date.
This constitutes the formal mandate of this Court issued pursuant to Rule
41(a) of the Federal Rules of Appellate Procedure .
FOR THE COURT:
MOLLY C. DWYER
CLERK OF COURT
By: Nixon Antonio Callejas Morales
Deputy Clerk
Ninth Circuit Rule 27-7

XXXXVl

21-30098

t

A

*»

. w «
■r. ■

' **

:*•

.V A

+\

\ .

!i:

C Table of Au1iioritifl0 Cited
\
f

\
%
;

L

4

TABLE OF AUTHORITIES
CASES

PAGE NUMBER

Due Process: Beil v Wolfish. 441 US 520, 521, 535-7, 543, 545 (1979):
Gouled v US. 255 US 298, 313 (1921):

14
15

McCarthy v US. 394 US 459, 466 (1969);

5, 17“8

Mooney v Holohan. 294 US 103,103-4, 110-2 (1935):

15

Re Oliver. 333 US 257, 273 (1948);

15

Russell v US. 369 US 749, 765-6 (1962);

28

US v Bagiev. 473 U.S. 667, 682-83 (1985);

15

US v Hess. 124 US 483, 487 (1888);

6

Washington v. Texas, 388 U.S. 14. 19, 87 S.Ct. 1920, 1923, (1967);

15

Jones v Horne (2011, App DC) 394 US App DC 361, 634 F.3d 588;

14

Poe v US (1964, DC Dist Col) 229 F Supp 6;

15

Ferrara v US. 456 F.3d 278, over, 286, 289, 30th, 34th pg (1st Cir 2006);

15

Wolfish v Levi (1978, CA2 NY) 573 F.2d 118;

14

Hubbard v Tavlor (2005, CA3 Del) 399 F.3d 150;

14

US v Tavlor (1962, CA4 NC) 303 F.2d 165;

15

Cunitv Jones (1987, CAS La) 835 F.2d 82;

15

Malone v Colver (1983, CA6 Tenn) 710 F.2d 258;

16

US v Chambers (1992, ED Mich) 778 F Supp 334;

15

Matzken v Hen (1984, CA7 Ill) 748 F.2d 1142;

14

Green v Baron (1989, CA8 Iowa) 879 F.2d 306;

14

Villanueva v George (1981, CA8 Mo) 659 F.2d 851.'

14

Chizenv Hunter. 809 F,2d 560, 561-3 (9th Cir 1986);

14

Berrv v Muskogee (1990, CA10 Okla) 900 F.2d 1489;

14

USA v Verkler 21-30098

Li

Commonwealth v Cronk. 396 Mass 197,198 (1985).

14

Bight to assistance of legal counsel:
10, 16

Johnson v Zerbst. 304 US 458 (1938);
Powell vAL. 287 US 45, 69 (1932);

16

US v Gonzalez-Lonez. 548 U.S. 140, 150 (2006);

16

US v Wade. 388 US 218, 226 (1967);

16

US v Mala (1993, CA1 Pueto Rico) 7 F.3d 1058, cert den 511 US 1086 (1994);

16

US v Iasiello (3rd Cir Pa. Jan 22,1999) 166 F.3d 212?

16

Greeny US (8th Cir Minn Aug 17, 2001);

16

Renew US (8th Cir Mo> Mar 7, 2000), 205 F.3d 1061;

16
10, 16

Frazer v US. 18 F.3d 778 (9th Cir 1993);
US v Neuven. 262 F,3d 998, 1005 (9th Cir 2001);

16

US V Velazquez. 855 F.3d 1021, 1034 (9* Cir 2017);

16

US v Duarte-Higareda (1995, CA Cal) 68 F>8d 369;

15

Ith Cir Okla. Mar 16,1999), 170 F.3d 1018;

16

US v Maxwell (10th Cir Olda, June 12, 2006);

16

Shenherd v US (11th Cir Fla, June 6, 2001);

16

St. nf WA v Delila Reid. 98358*3 No 36274*4*111 (2020).

16

Double Jeopardy and Multiple Punishments Prohibited;
Blarkledge v Perrv. 417 US 21, 24, 30 (1974);

16

McCarthy v US. 394 US 459, 466 (1969);

20*1

Menna v NY. 423 US 61, sum, 62 (1975);

16

US v Miller. 23 F.3d 194, 194, 198, 199 (8th Cir 1994);
USA v Verkler 21*30098

Lii

3, 5, 16

Hart v Harris (1964, WD Mo) 228 F Supp 856);

27

US v dvmer <9th Cir 1994) 25 F,3d 824, 831*833 in II.;

2, 4, 16

Mansolilli v US. 2 F.2d 42, 43;

14

Mevers v US, 3 F.2d 379, 380;

13

Commonwealth v Cronk 396 Mass 197,198 (1985).

Fines* Austin v US. 509 US 602*4, 609, 621*3 (1993);

3, 5, 16

12, 13,16,18, 20, 21, 27, 32

Browning-Ferris Ind, v Kelco Disposal Inc.. 492 US 257 (1989); 12, 13,16, 18, 20, 21, 27, 32
Fuentes v Shevin. 407 U.S. 67*8, 70*2, 80*9, 94*7 (1972);

12, 13,16,18, 20, 21, 27, 32

McVeigh v United States. 11 Wall 259, 266*267 (1871);

12, 13,16,18, 20, 21, 27, 32

Solem v Helm. 463 U.S. 277, syllabus #1 (1983);

12, 13,16, 18, 20, 21, 27, 32

Timbs v Indiana. 586 US _ (2019);

12, 13,16, 18, 20, 21, 27, 32

Tron v Dulles. 256 US 86 (1958);

12, 13,16,18, 20, 21, 27, 32

US v Baiakaiian. 524 U.S. 321, 321*334, 328*30, 334 (1998);

12, 13,16,18, 20, 21, 27, 32

US v James Daniel Good Heal Prop. 510 U.S. 43, Syl.48-62 (1993);

12,13,16,18,20,21,27,32

The right to appeal or collateral attack and win:
AbnevvUS. 431 US 651 (1977);

20

Hambins v US. 418 US 87, 117 (1974);

19

Rodriciuez v US 395 US 327 (1969);

19

Covev v US (2000, DC SD) 109 F.Supp 2d 1135;

20

US v Cunningham. 166 US App DC 206, 509 F.2d 961 (1975);

19

US v Harris. 140 US App. D.C. 270, 435 F.2d 74, 89, 91*2 (D.C. Cir 1970);

7

US v Spinner. 180 F.3d 514, 516 (3* Cir 1999);

20

Cook v US (1975, CA Tex) 521 F.2d 876;

18

USA vVerkler 21*30098

T.iii

Kennedy v US (1957, CA5 Ga) 249 F.2d 257;

18

Thor v US (1977, CA5 Tex) 554 F.2d 759;

19

Johnson vRenico. 314 F.Supp 2d 700, 706 (DC ED Mich 2004);

18

US v Camn (1976, CAS Iowa) 541 F.2d 737;

19

Craig v US (1937, CA9 Cal) 89 F.2d 980;

20

Dovle v US (1983, CA9 Or) 721 F.2d 1195;

19

Woodward v. Williams. 263 FM 1135, 1140 (10th Cir.2001);

18

US v Burch (1999, CA10 Colo) 169 F.3d 666;

20

Williams v US (1960, CA10 Kan) 283 F,2d 59;

20

Right to an impartial judge* Armstrong v. Manzo, 380 U.S. 545, 550 (1965); 23
Glasser v US. 315 US 60, 72 (1942);

21

Goldberg v Kelly. 397 US 254 (1970);

21

Hallidav v US, 380 F, 2d 270 (1st Cir 1967);

21

Hamdiv Rumsfeld. 542 US 547, HI D (2004);

21

In re Murchison. 349 US 133 (1955);

21

Old Colony Trust Co. v Commissioner of Int Rev. 279 US 716 (1929);

22

Turney v Ohio, 273 U. S, 510, Syllabus, # 1, 522 (1927);

21

United Retail and Wholesale Employees Teamsters Union Local No. 115 Pension
Plan v Yahn and McDonnell. Inc. 787 F.2d 128, 138 (3rf Cir 1985);
US v Cross (3^ Cir 2002) 314;

21, 22
22

Great Western Mining and Material Co v Fox Rothschild LLP (2010, CAS NJ)
615 F.3d 159, cert den (2011, US) 131 S Ct 1798;
USA vVerkler 21-30098

Liv

12, 22

Nesses v Shepard, 68 R3d 1003> 1005 (7th Cir 1995);

12, 22

Board of Educ, v. Rice. [1911] A.C. 179;

21

Rex v. University of Cambridge, I Sti\ 557, 568 (1723).

21

Right to an hearing: Boddie v. Connecticut. 401 U.S. 371, 378 (1971);

23

Dunn v US. 442 US 100, 107 (1979);

23

Goldberg v Kelly. 397 U.S. 254, 267-68, 271 (1970);

22

Groppiv Leslie (1972) 404 US 496, 30L ED 2d 632, 92 S a 582;

23

Goss v. Lopez. 95 S. Ct. 729 (1975);

23

In Re Murchinson. 349 US 133 (1953);

22

Joint Anti-Fascist Refugee Committee v. McGrath. 7 341 U.S. 123,171-2 (1950);

23

Londoner v. Denver. 210 U.S. 373, 386 (1908);

23

MachibrodavUS. 368 US 487, 496 (1962);

23

Marshall vJerico. 466 US 238, 242 (1980);

12

McCarthy v US. 394 US 459, 466 (1969);

24

Mullane v. Central Hanover Bank & Trust Co.. 339 U.S. 306, 3140.5 (I960);

23

North Ga. Finishing. Inc, v. Di-Chem. Inc.. 96 S. Ct. 719, 723 (1975);

23

Walker v Johnston. 312 US 275, 287 (1941);

23

Willner v. Committee on Character. 373 U.S. 96, 102 (1963);

23

Wolff v. McDonnell 418 U.S. 539, 557-68 (1974);

23

Mack v US (1980, CA1 Mass) 635 F.2d 20;

23

Billington v Underwood (1980, CA5 GA) 613 F.2d 91;

22

Stewart v. Jozwiak. 346 F. Supp. 1062, 1064 (E.D. Wis. 1972);

23

Joint Anti-Fascist Comm, v. McGrath. p349 ? (1950).

23

USA vVerkler 21-30098

Lv

Breach of contract needs to stop if the government has any honorSantobello v NY. 404 US 267, 263, 267 (1971);

7, 8-9,10,13, 16, 21, 26, 26

Kingsley v US. 968 F.2d 109 (1992, CA1 Mass);

7, 8-9,10, 13, 16, 21, 25, 26

Dunn v Collaran. 247 F.3d 450, 462, Penn 12/7/20001

7, 8-9, 10, 13, 16, 21, 26, 26

BrvanvUS. 492 F.2d 775, 778 (5th Cir 1974);

7, 8-9,10,13,16, 21, 25, 26

US v Saling. 205 F.3d 764 (5th Cir 2000);

7, 8-9,10,13, 16, 21, 25, 26

US v Gonzalez (2002, CA5 Tex) 309 F.3d 882.

7, 8-9,10,13,16, 21, 26, 26

It is an abuse of discretion to apply the wrong legal standard;
Bovkinv Alabama. 395 US 238, 242 (1969);

15

Goldberg v Kelly. 397 US 264 (1970);

24

Johnson vZerbst. 304 US 458, 464-5 (1938);

10, 25

Hallidav v US. 380 F. 2d 270 (1st Cir 1967);

21

US v Dozier. 672, F.2d 531, #100 (6th Cir 1982);

24

Kalmbach. Inc, v. Ins. Co. of State of Penns.. 529 F.2d 552, 556 (9th Cir. 1976);

6

US v Ruiz. 257 F.3d 1030, 1033 (9th Cir. 2001);

24

Arce v. Garcia. 434 F.3d 1254, 1260 (11th Cir.2006);

24

Goodman-Gable-Gould Co. v. Tiara Condominium Ass'n. Inc..
595 F.3d 1203,1210 (11th Cir.2010).

24

Cruel and unusual punishment; Bradv v US. 397 US 742, 755 (1970);

27

Ferrara v US (2006, CAl Mass) (l9t Cir 2006) 456 F.3d 278, 17th pg.

Speedy Trial: US v Marion. 404 US 307, 320, 331 (1971);
Adkins v US. (8«* Cir 1999) 298 F.2d 842;
USA vVerkler 21-30098

27

4
27

Lvi

Bartlett v US (1966, CA8 Mo) 354 F.2d 345, 348;

27

Turnery US (1964, CA8 Mo) 325 F.2d 988;

27

US v Clvmer (9th Cir 1994) 25 F.3d 824, 826*827 in 1., 829*833 in II.

26

The right of every individual to claim protection of the Constitution and laws:
Aenello v US. 269 US 20, 32 (1926);

28, 29

Bartell v US. 227 US 427, 431 (1913);

5

Batchelor v US. 156 US 425, 431 (1895);

5

Berger v US. 295 US 78, 82 (1985);

5

Blackledge v Perrv. 417 US 21, 28*9 (1974);

29, 30

Blitz v US. 153 US 308, 315 (1894);

6

BovdvUS. 176 US 616 (1886);

29, 30

Bovkinv Alabama. 395 US 238, 243 (1969);

3, 14, 16, 18, 19

Byars v US. 273 US 28 (1927);

29, 30

Cochran &Savrev US. 167 US 286, 290 (1895);
Deutch v US. 367 US 456, 471 (1961);

6
28

Dunbar v US. 156 US 185,190*2 (1895);

6

Dunn v US. 442 US 100 (1979);

28

Evans v US. 153 US 584, 587*8 (1894);

6

Ex parte Bain. 121 US 1, 13 (1887);

28

Ex parte Wilson. 114 US 417, 429 (1885);

28

Flaxer v US. 358 US 147, 151 (1958);

28

Gouled v US. 255 US 298, 313 (1921);

29, 30

GrauvUS. 287 US 124 (1932);

29, 30

USA vVerkler 21-30098

Lvii

Gregory v Chicago. 394 US 111, 112 (1969);
HaenervUS. 385 US 427, 431 (1932);

28

6

Johnson v Zerbst. 304 US 458, 464*465 (1938);

10

Kercheval v US. 274 US 220, 228 (1927);

29

MachibrodavUS. 368 US 487, 493 (1962);

29

Malloy v Hogan. 378 US 1, 7 (1964);

29

Marburv v Madison. 1 Cranch, 137, 163, 2 L. Ed 60 (1803);

28

Pottery US. 155 US 438, 445 (1894);

6

Re Oliver. 333 US 257, 273 (1948);

15, 28

PettibonevUS. 148 US 197, 202*4 (1893);

6

Rosen v US. 161 US 29, 34 (1896);

6

Russell v US. 369 US 749, 756, 763*6, note 13 (1962);

6, 28

SachervUS. 356 US 576, 577 (1958);

28

Shelton v US. 356 US 26, 26 (1958);

29

Sinclair v US. 279 US 263, 296*7 (1929);

28

Smithy US. 360 US 1, 9, 10 (1959);

28

US v Britton. 107 US 655, 661, 669 (1883);

6

US v Carll. 105 US 611, 612 (1881);

6

US v Cook. 17 Wall 168,174 (1872);

6

US v Cruikshank. 92 US 542, 558 (1875);

6

US v Debrow. 346 US 374, 377*8 (1953);

6

US v Jackson. 390 US 670 (1968);

29, 30

US v Northwav. 120 US 327, 332, 334 (1887);

6

US v Petrillo. 332 US 1, 10, 11 (1947);

6

USA v Verkler 21-30098

Lviii

US V Simmons. 96 US 360, 362 (1877);

6

US v Tavlor (1962, CA4 NC) 303 F.2d 165;

29

Walev v Johnston. 316 US 101, 104 (1942);

29

Watkins v US. 354 US 178, 208 (1957);

28

Weeks v US. 323 US 383 (1914);

29,30

WongTaivUS. 273 US 77, 80-1 (1927);

6

Brusbon v US (2008, Dist Col App) 957 A2d 931;

29

US v Achtner. 144 F.2d 49, 51 (2d Cir 1944),*

6

US v Lamont (CA2 NY 1956) 236 F.2d 312;

6

US v Inman. 352 F.2d 954 (4^ Cir 1965);

29

Mullins v US. 382 F.2d 258 (4th Cir 1967);

29

Schautz v Beto. 416 F.2d 214, 216, # 7, 9 (5* Cir 1969);

29

US v London. 550 F.2d 206, 211 (5th Cir 1977);

6

Wilson v US. 168 F.2d 659 (5th Cir 1947);

6

Guerra v Collins, 916 F.Supp 620 (S.D. Tex 1995);

29

US v Smith. (1964, ED La) 228 F.Supp 345, 346*7;

6
29

Adkins v US. (8* Cir 1999) 298 F.2d 842;

29, 30

Cummings v US. 398 F.2d 377, 382 (8th Cir 1968);

29

Bartlett v US (1966, CA8 Mo) 354 F.2d 345, 348;

27

Turnery US (1964, CA8 Mo) 325 F.2d 988;

29

US v DeMarco. 550 F.2d 1224, 1226 (9th Cir 1977);

29, 30
29, 30

US v King. 587 F.2d 956, 963 (9th Cir 1978);
USA vVerkler 21-30098

6

Lix

US v Morrison. 636 F.2d 286, 288, overview, outcome (9th Cir 1976);
US v Oaks. 527 F.2d 937, 940 (9th Cir 1975);

6
29, 30

US v Root. 366 F.2d 377 (9th Cir 1966);

6

US v Seifuddin (1987, CA9 Or) 820 F.2d 1074;

30

Nelson v US. 406 F.2d 1136 (10th Cir 1969);

6

Meer v US (CA10 Colo 1956) 235 F.2d 65;

6

Smith v Campbell (2008, CAll Fla) 295 Fed App 314.

29

Government cannot commit a crime, a tort or lie against an American*
Agnello v US. 269 US 20, 32 (1925);

29

Albright v Oliver. 610 US 266, nl5 (1994);

30

Ashcraft v Tennessee. 327 US 274, 278 (1946);

31

Arizona v Youngblood. 488 US 61, 55 (1988);

30

Bannon & Mulkev v US. 156 US 464, 468, 469 (1896);

36

Berger v US. 296 US 78, 79, 88 (1936);

30

BovdvUS. 176 US 616, 617, 630, 635 (1886);

30

Bradv v Maryland. 373 US 83, 86,87 (1963);

31, 35

Bradv v US. 397 US 742, 755 (1970);

35

BravermanvUS. 317 US 49, 53 (1942);

37

Brown v Miss.. 297 US 276, 281-7 (1936);

35

BvarsvUS. 273 US 28, 32 (1927);

30

Corlev v US. 556 US 303, 309 (2009);

35

Davis v St of NC. 384 US 737, 752*3 (1966);

6
83, 37

Glasser v US. 315 US 60, 80;
Gouled v US. 255 US 298, 298, 304 (1921);
USA v Verkler 21-30098

30
Lx

Graham v Conner. 490 US 386, 395, 398 (1989);

31, 36

Kvles v Whitlev. 514 US 419, 432 (1995);

32

MachihrodavUS. 368 US 487, 487, 493, 496 (1962);

31

Mallory v US. 354 US 449, 453, summary (1957);

5

Miranda vAZ. 384 US 436, 447 (1966);

35

Moore v Demnsev. 261 US 86, 89*90 (1923);

31

Moore v Illinois. 408 US 786, 794*5 (1972);

31

Naous v Illinois. 360 US 264, 269, 271*2 (1959);

35

McNahb v US. 318 US 332, 340, 343, 344, 345, 347 (1943);

7,35

Pierce v US. 253 US 239, 244 (1920);

37

Pinkerton v US. 328 US 640, 640 (1946);

38

Re Oliver. 333 US 267, 273 (1948);

37

Roe v Wade. 410 US 113, 152 (1973);

30

Salmas v US. 522 US 52, 63*5 (1997);

35, 38, 39

US v Ferreira. 54 US 40, 51 (1851);

35

US v Guest 363 US 745, 745 (1966);

36

US v Lefkowitz. 285 US 452, 464, 466*7 (1932);

30, 36

US v Mitchell. 322 US 65, 67, 70, 88 (1944);

35

US v Nardello. 393 US 286, 286*289 (1969);

35

US v Nixon. 418 US 683, 701 (1974);

37

US v Rabinowich. 238 US 78, 86 (1915);

37

Upahaw v US. 335 US 410, 413, summary (1948);
Webbv Texas. 409 U.S. 91, 95, 93 S.Ct. 351, 34 L.Ed.2d 330 (1972);
Weeks v US. 323 US 383, 383, 392 (1914);
USA v Verkler 21-30098

o. 35
35
30, 31

Lxi

Bvmim v US. 104 US App. D.C. 368, 262 F.2d 466, 466-7 (1968);

35

US V Barker (1976, App DC) 198 US App 174, 546 F.2d 940;

37

US v Ehrlichman (1976, App DC) 178 US App DC 144, 546 F.2d 910, 39 ARL Fed 604; 35
US v Ellis (1942, DC SC) 43 F Supp 321;

37

US v King (1973, App DC) 157 US App DC 179, 482 F.2d 768, 776;

33

US V Welch (1994, DC Me) 849 F Supp 6, 6-8;

6

Ferrara v US (2006, CA1 Maas) (1* Cir 2006) 456 F.3d 278, 26th pgl

35-6

US v Angiulo. 847 F.2d 956, slip op at 14-18 (1st Cir 1988);

37

US v Bvrne. (1st Cir. 2006) 435 F.3d 16, 18-201

35

US v Cruz. 568 F.2d 781, 782-3 (1* Cir 1978);

37

US v DeVincent. 632 F.2d 165, 159 (Is* Cir 1980);

37

US v Hathaway. 534 F.2d 386, 393 (1* Cir 1976);

35

US v Ruiz. 905 F.2d 499, 508, # 3,39,40,154*5 (1st Cir 1990);

35

US v Winter. 663 F.2d 1120,1136 (1st Cir 1981);

37

Wilkins v US. US Dist Ct Mass 13-1637 (1* Cir 2014);

35

Hunt v Weatherbee. 626 F.Supp 1097, 1107 (D.Mass. 1986);

38

US v Torres Lopez (1988, CA1 Puerto Rico) 851 F.2d 520, 524;

37

US v Weilner (1993, CA1 Mass) 3 F.3d 17;

38

US v Weiner (1993, CA1 Mass) 3 F.3d 17;

37

US v Angelilli. 660 F.2d 23, 30-5, #1-2 (&* Cir 1981);

35

USvMeiia. 545 F.3d 179, 206'7 (2d Cir 2008);

37

US v Mareiotta. 688 F.2d 108, 132-3, #1,2,4,5,8-10,84 <2* Cir 1982);

35

US v Marraoese. 486 F.2d 918, 921 (2nd Cir 1973);

33

US v Matera. 489 F.3d 115, 121 (2d Cir 2007);

37

USA vVerkfer 21-30098

Lxii

US v Natale. 526 F.2d 1160, 1168*9 (2nd Cir 1975);

38, 39

US v Sears. 544 F.2d 585, 587 (2nd Cir 1976);

38, 39

US v Bufalino (1981, SD NY) 518 F Supp 1190;

37

US v Diaz (1999, CA2 Conn) 176 F.3d 52, 79, 52 Fed Rules Evid Serv 380;

33, 37

US v Manton (CCA2d) 107 F(2d) 834, 839;

33, 37

US v Castro. 411 Fed Appx 415 (2011CA2 NY);

37

US v Middleton. (1965, CA2 NY) 344 F.2d 78, overview;

35

Wolfish v Levi (1978, CA2 NY) 673 F.2d 118,118;

35

US v Bachelor. 611 F.2d 443, 450, #1,2,35 (3rf Cir 1979);

35

US v Cross (3rd Cir 2002), 310*3;

36

US v Frumento. 563 F.2d 1083, ?*1092, #2 (3rd Cir 1977);

35

US v Mazzei. 521 F.2d 639, 643*4, #1,17,37 (3«> Cir 1975);

35

US v Twigg. 588 F.2d 373, 381 (3d Cir. 1978);

38

Dickerson v US Steel Com.. 439 F.Supp 55, 67 (ExD. Pa 1977);

38

Giuffre v Brissell (1994, CA3 NJ) 31 F.3d 1241;

31

Govt of Virgin Is v Solis (1964, CA3 Vi) 334 F.2d 517, 620*1;

35

US v DiSalvo (1994, CA3 Pa) 34 F,3d 1204, proc posture, 1211, 1244;
US v Feliziani (1979, ED Pa) 472 F.Supp 1037, 1046;
US v Guadalupe (2005, CA3 PA) 402 F.3d 409;

38, 39
37
36, 37

US v Vega (2006, CA3) 184 Fed Appx 236;

35

US v Altomare. 625 F.2d 5, 7*8 (4* Cir 1980);

35

US v Baker. 617 F.2d 1060, #1, 9 (4* Cir 1980);

35

US v Lone. 651 F,2d 239, 241*2, #1,2,21 <4* Cir 1981);

35

Carpenter v US (1959, CA4 Va) 264 F.2d 565, 671, 572;

35, 38

USA vVerkler 21-30098

Lxiii

Subton v US (1959, CA4 Va) 267 F.2d 271;

35

Crowe v Lucas. 595 F.2d 985, 993 (B* Cir 1979);

38

Shelton v US. 246 F.2d 671, 572 n.2 <5ft Cir 1957), rov'd 256 US 26 (1958);

35

US v Bieham. 812 F.2d 943, 944 (5th Cir 1987);

37

US v Brown. 555 F.2d 407, 415 (5th Cir 1977);

37

US v Dozier. 672, F.2d 531, 543 n8, #1-14,16,32,114-5 (5th Cir 1982);

35

US v Hammond. 598 F 2d 1008,1012-3 (5* Cir 1979);

35

US v Nakaladski. 481 F.2d 289, 298 (5th Cir 1973);

38, 39

US v Partida. 385 F.3d 546, 562, #2,83,89 (5th Cir 2004);

36

US v Strickland. 509 F.2d 273, 277 (5th Cir 1975);

32

USvTonev. 698 F,2d 1349,1355 (5th Cir 1979);

37

USvVaden. 912 F.2d 780, 781 (6th Cir 1990);

37

US v Welch. 656 F.2d 1039, 1039-47,1057,1069,1060,1062,1064-5,1067-70,
1AC,D,HI A,1,C,1,D,1,2 (5th Cir 1981):

36

US v Wright. 797 F.2d 245, 249-60 (6* Cir 1986):

35

Cunitv Jones (1987, CA6 La) 835 F.2d 82;

35

US v Hinoiosa (2012, CA5 Tex) 2012 US App LEXIS;

37

US v Morado (1972, CATex) 454 F.2d 167;

37

US v Chambers. 382 F.2d 910, 913-4 (6* Cir 1967);

37

US v Sivils. 960 F.2d 587, 696, #2,23,73 (6th Cir 1992);

36

US v Thompson. 685 F.2d 993, 998-1000, #2,39,46,53-6, 69 (6th Cir 1982);

36

US v Tines. 70 F.3d 891, 893 (6th Cir 1995);

36-7

US v Carson (2009, CA6 Mich) 560 F.3d 566, posture, 570-2, 590;

36

Branion v Gramlv. 855 F.2d 1256 (7th Cir 1988);

35

Nesses v Shepard. 68 F.3d 1003, 1005 (7* Cir 1995);

36

USA vVerkier 21*30098

Lxiv

US v Braasch. 505 F.2d 139, posture, 141-2, 148,151 (7* Cir 1974);

33

US v Blackwood. 768 F.2d 131,134-6, #2,3,7,60 (7°» Cir 1985);

36

US v Castillo. 814 F.2d 351, 353 (7th Cir 1987);

32-3

US v Cogwell 486 F,2d 823 (7* Cir 1973);

32

US v Connecticut. 769 F.2d 420 (7th Cir 1985);

35

US v Craig. 573 F.2d 455 (7th Cir 1977);

37

US v Devine. 787 F.2d 1086 (7th Cir 1986);

35

US v Gironda. 758 F.2d 1201,1217 (7th Cir 1985);

33

US v Griffin. 827 F.2d 1108, 1116 (7th Cir 1987);

32

US v Grzvwacz, 603 F.2d 682, 686-7, 690, #1-10,12-20,22-25,29,36 (7th Cir 1979);

33

US v Hocking. 860 F.2d 769, 769, 777 (7* Cir 1988);

36

US v Kaczmarek. 490 F.2d 1031, 1035 (7th Cir 1974);

32

US v Lee Stoiler Enterprises. Inc.. 652 F.2d 1313, 1317-9, 1-4,10,12 (7th Cir 1981);

36

798 F.2d 977, 979 (7th Cir 1986):

36

US v Masters. 924 F.2d 1362 (7* Cir 1991);

36

USvMavo. 721 F.2d 1084,1088 (7th Cir 1983);

32

US v Murohv. 768 F.2d 1518, 1525-8 (7th Cir 1985);

35

US v Rindone. 631 F.2d 491, 491, 494-5 <7* Cir 1980);

36

US v Robinson. 470 F.2d 121,123 (7th Cir 1972);

33

36
US v Shamah. 624 F,8d 449, overview, 451*2, 455, 457-9 (7th Cir 2010);

36

US v Washington. 586 F.2d 1143, 1153 <7* Cir 1987);

32

US v West. 670 F.2d 675, 685 (7th Cir 1982);

33

US v Whalev. 830 F.2d 1469, 1476, 1477 (7th Cir 1987);

32

Duran v Elrod. (1979, CA7 Ill) 542 F.2d 998;

32

USA vVerkter 21-30098

Lxv

Somberger v City of Knoxville (2006, CA7 HI) 434 F.3d 1006;
US v Black (2008, CA7 IH) 630 F.3d 696;

31
35, 36

US v Jacquemain (2005, ED Mich) 368 F Supp 2d 800;

36

US v Qlinger (1985, CA7 10) 769 F.2d 1293);

35

US v Roth (1988, CA7 Ill) 860 F.2d 1382, 1383,1386;

35

Cummings v US. 398 F.2d 377, 380 (8th Cir 1968);

32

Green v Baron (1989, CA8 Iowa) 879 F.2d 305;

35

US v Benefield (1979, CA8 Mo) 593 F.2d 815;

7

US_v Brown. 584 F.2d 252, 262 (8tb Cir 1978);

35, 37

US v BurchinaL 657 F.2d 985, 992, #28 (8* Cir 1981);

37

US_v Clark, 646 F.2d 1259,1261-7, #3,4,28 (8th Cir 1981);

36

US v Jackson. 235 F.2d 925, 928 (8th Cir 1956);

37

=, 1019-21, 1026 (8th Cir 1978);

36

Johnson-El v George (1989, CA8 Mo) 878 F,2d 1043;

36

Missouri y Blair, 691 S.W. 2d 259 (Mo 1985) en banc, cert dis 480 US 698 (1987);

36

US v Keeble (1972, CA8 SD) 459 F.2d 757;

36

Villanueva v George (1981, CA8 Mo) 659 F.2d 851;

36

Warren v Lincoln (1987, CA8 Neb) 816 F.2d 1254;

35-6

Ginoza v US. 279 F.2d 616, outcome (9th Cir I960);

35

Taglavore v US. 291 F.2d 262, 265 (9*1' Cir 1961);

35

US v Bagnariol. 665 F.2d 877, 893, #1, 18, 85 (9th Cir 1981);

35, 38

US v Bordallo. 857 F.2d 519, #1,3-6,8,27,45,50 (9th Cir 1988);

36

1511, 1515 n 15, #2-5,8,21,26,51-2,61 (9fh Cir 1992);

35

US v Egan. 860 F. 2d 904, #2, 18 (9th Cir 1988);

36

US v Gates. 616 F.2d 1103, #1-2, 34-5, 38 (9* Cir 1980);

36

USAvVerkler 21-30098

Lxvi

US v Jeraigan. 582 F.2d 1211,1213-4 (9th Cir 1978);

35

US v Lane. 705 F.3d 1134, 1399 (9th Cir 2013);

36
35

US v Nunez. 483 F.2d 453, 460 (9* Cir 1973);

33

US v PolizzL 801 F.2d 1543, 1548 (9th Cir 1986);

38, 39

Bvrnea v US (1964, CA9 Cal) 327 F.2d 825, ?, 829, 833;

7

Cote v US (1966, CA9 Nev) 357 F.2d 789, 793;

35

Diaz v Gates (2005, CA9 Cal) 420 F.3d 897, #1,2, 22, 26;

36

Marrowy US (1985, CA9 Cal) 772 F.2d 525;

35

US v Maves (1969, CA9 Cal) 417 F,2d 771, outcome;

35

US v McFall (20099, CA9 Cal) 2009 US App LEXIS, posture;

35

US v Ohlson. (1977, CA9 Cal) 552 F.2d 1347,1349, #2. 9;

36

, overview, 173, 175-7, ?;

35

US v Graham. 581 F,2d 789, #1,8 (1978, CA Wash);

36

US v Reese (1993, CA9 Cal) 2 F.2d 870;

37

US v Skillmen; (1990, CA9 Cal) 922 F.2d 1370;

37

USvSotorLopez (1979, CA9 Or) 603 F.2d 789;

35

Fritts v US (10th Cir 1935) 80 F.2d 644;

38

Gooch v US (10 Cir 1936) 82 F.2d 534;

38

Jordan v US. 370 F.2d 126, 128 (10th Cir 1966);

37

US v Whalen. 976 F.2d 1346, 1348 (10th Cir 1992);

35

US v Zang. 703 F.2d 1186, 1191 (10th Cir 1982);

37

Berrv v Muskogee (1990, CA10 Okla) 900 F.2d 1489;

35

US v Hampton. 786 F.2d 977, 979 (1986, CA10 Okla):

37

US v Whitnev (2000, CA Kan) 2290 F,3d 1296, 2000 Colo JCAR 5742;

37

USA vVerkler 21-30098

Lxvii

US V Wright (1994, CA10 Okla) 43 F.3d 491, 499, #6;

35

US v Andrews. 765 F.2d 1491, 1496 (11* Cir 1985);

37

US v Broadwell. 870 F.2d 594, 602 (11th Cir 1989);

36, 37

US v Cola. 719 F.2d 1120, 1124 (11“' Cir 1983);

37

US v Heller. 830 F 2d 150, 152*3 (11th Cir 1987);

35 •

US v Holloway. 971 F.2d 675, 679 (11th Cir 1992);

37

US v Holzer. 816 F.2d 304, 305*7, 310 (11th Cir 1987);

36

US v Nguven. 255 F.3d 1335, 1341 (11* Cir 2001);

38, 39

US v Ronda (2006, CA11 Fla) 455 F.3d 1273;

35

US v Wilson. 894 F.2d 1245, 1253 (11* Cir 1990);

37

US v Romero (2013, CA11 Fla) 2013 US App LEXIS 8683;

35, 38

US v Townsend (2011, CA11 Fla) 630 F.3d 1003;

34

US v Veal (1998, CAU Fla) 153 F.3d 1233, overview, 1233, 1248;

36

US v Scrushv. 237 F.R.D. 464, 468;

37

US v Conn. 420*1, 423, 425

38

Commonwealth v Hine. 383 Mass 564, 573 (1984).

36

STATUTES AND RULES
Due Process*
Preamble

15, 26

The First Amendment

15

The 5th Amendment

14, 15, 17,18, 26

The Sixth Amendment

26, 28

28U.S. Code §2250

20

Federal Rule of Criminal Procedure 3
USA v Verkler 21-30098

2

Lxviii

Federal Rule of Criminal Procedure 4

1, 4, 18

Federal Eule of Criminal Procedure 5

2, 3,4

Federal Eule of Criminal Procedure 11

14

Federal Eule of Criminal Procedure 16

3, 11, 39

Federal Eule of Criminal Procedure 41

2, 4, 8, 10

Right to assistance of legal counsel:
The 6th Amendment

16, 26

18U.S. Code § 3006A

3, 4, 6, 7, 8, 10,12, 16

Federal Eule of Criminal Procedure 5

2, 16

Federal Eule of Criminal Procedure 11

14,16, 28

Federal Rule of Criminal Procedure 44

12, 16

Double Jeopardy and Multiple Punishments Prohibited:
The Fifth Amendment

17, 26

42 USC §2000h-l

1

Federal Rule of Civil Procedure 41

5, 6, 9,14,16, 21, 24, 28

WAC 192-100-050

17

WAC 192-110-150

17

WAC 192-220-020

17

RCW 50.20.070

17

RCW 9.35.020

17

RCW 9.38.020

17

USA vVerkler 21-30098

Lx»ix

RCW 50.36.0X0

17

RCW 50.04*310

17

The right to appeal or collateral attack and win:
The Preamble to the US Constitution

7

Article 1 Section 8

18

Article I Section 9

26

Article 3 Sections 1 with Section 2

20

The Fifth Amendment

18, 26

18 USC 3006A

12, 39

28 U.S. Code §1292

9, 10, 11, 12

28 U.S. Code §2243

10

28 U.S. Code §2255

12, 19, 27

Rules Governing Section 2255 Proceeding for the US District Court 11

19

Federal Rule of Appellate Procedure 3

2,11,12, 13,18, 19, 20

Federal Rule of Appellate Procedure 4

2,11, 12, 13, 18, 19, 20

Fed. Rule of Crim. Proc. 44(a)

12,19, 20

Fed. Rule of Crim. Proc. 55

10,11

Fed. Rule of Crim. Proc. 66

10,11

Right to an impartial judge:
Article III Section 2

26

The Fourth Amendment

26

18 US. Code § 1346
USA vVerkler 21-30098

2-12, 21, 22
Lxx

21, 24

28 USC sec 465(a)(b)(l)(5)(ii)(ui)(iv)(c)(e)
Federal Rule Criminal Procedure 5

2,3

Federal Rule Criminal Procedure 11

28

Right to an hearing4-12, 22-23

Article 3 Section 2
The Fifth Amendment

16,17, 26

18 U.S. Code § 3006A (d)(4)(B)(ii)(IV)

4, 6,16

Fed. R. Crim. P. 5 (a)(1)(A)

2

Federal Rule of Criminal Procedure 11(b)

6
12,19

Fed. Rule of Crim. Proc. 44(a)

Breach of contract28 USC 3308

18

The Uniform Commercial Code states, “§ 2*601

18

It is an abuse of discretion to apply the wrong legal Standard22, 24

Federal Rule of Criminal Procedure 1

2-3, 6, 7-8, 9,10

Federal Rule of Criminal Procedure 2

1

15 U.S. Code § 1692h

Cruel and unusual punishment17, 26, 28

The Eighth Amendment

1, 12, 26

15 USC 1692d

USA vVerkter 21-30098

Lxxi

Speedy Trial:
The Sixth Amendment

28

18 USC 3161

3, 4, 25, 28

18 USC 3162

27

The right of every individual to claim protection of the Constitution and Laws:
15 USC 1692e

1

15 USC 1692g

1

18 U.S. Code § 4

27

18 U.S. Code § 3142

3, 14, 28

18 U.S. Code §3164

3, 14, 28

18 U.S. Code §3585

14, 25

28 U.S. Code §545

18

Federal Rule of Criminal Procedure 3

6

Fed Rule of Criminal Procedure 7

6

Government cannot commit a crime, a tort or lie against an American:
Preamble

1, 17. 26

Article I Section 2 "... shall have the sole Power of Impeachment”
Article I Section 3

the Party convicted shall... be... subject to... Punishment...”

Article I Section 5 “... Each House may punish its Members...”
Article II Section 4 “...Officers of the [US],„ for... or other high Crimes and Misdemeanors.”
Article III Section 1 “...The Judges... shall hold their Offices during good Behaviour,”
The Fourth Amendment

USA vVerkler 21-30098

1, 26, 30

Lxxii

The Fifth Amendment

1,15, 17, 26, 30

The Sixth Amendment

26, 28, 35

The Eighth Amendment

3, 26

The Ninth Amendment

30

The Tenth Amendment

26, 30

The Thirteenth Amendment

26, 33

The Fourteenth Amendment

39

18 U.S. Code § 3

2,7

18 U.S. Code § 4

7, 27

18 U.S. Code §211

1

18 U.S. Code §241

2,7

18 U.S. Code § 643

7-8, 8*9, 9, 10,12, 32, 33, 39

18 U.S. Code § 645

7*8, 8*9, 9,10,12, 32, 33, 39

18 U.S. Code §646

7*8, 8*9, 10, 12, 32, 33, 39

18 U.S. Code § 648

7*8, 8*9, 9,10,12, 32, 33, 39

18 U.S. Code § 872

1, 38, 39

18 U.S. Code §875

.

18 U.S. Code § 876

1, 4,12, 32, 33, 38, 39
1, 38

18 USC § 880

17,18, 38, 39

18 U.S. Code § 892

18, 38, 39

18 U.S. Code §894

18, 38

18 U.S. Code §1201

2, 5, 9,14,17, 23*4, 26, 28, 33

18 U.S. Code § 1341

1, 2, 13, 17, 34

18 U.S. Code § 1346

1, 2, 7, 9,12

USA vVerkler 21-30098

Lxxiii

18 U.S. Code § 1349

2

18 U.S. Code § 1361

2

18 U.S. Code § 1506

2, 3, 4, 5, 6, 7, 12, 38

18 U.S. Code §1512

2,7

18 U.S. Code § 1589

2

18 U.S. Code § 1959

1,2

18 U.S. Code § 1961

2, 38, 39

18 U.S. Code § 1962

2

18 U.S. Code §2071

2, 7, 12, 38, 39

18 U.S. Code § 2113

2, 38

Federal Rule of Criminal Procedure 49

12

Federal Rule of Appellate Procedure Rule 25
Circuit Rule 27'9. Motions To Dismiss Criminal Appeals 27*9.1

USA Werkler 21-30098

Lxxiv

9

5

V

I

J

r
t

i
}

.

/
i

• * !•,«
;■.

o

•>/:

r

.

;\ 4M'1*

•.

A

I) OoDfifcihitioiud provisions, statutes
ti

I
i

Lxx y

1

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

DUE PROCESS

The First Amendment states, “Amendment I
Congress shall make no law respecting an establishment of religion, or
prohibiting the free exercise thereof or abridging the freedom of speech, or of
the press? or the right of the people peaceably to assemble, and to petition the
Government for a redress of grievances.”
The 4th Amendment states, “Fourth Amendment The right of the people to be secure
in their persons, houses, papers, and effects, against unreasonable searches and seizures,
shall not be violated, and no Warrants shall issue, but upon probable cause, supported by
Oath or affirmation, and particularly describing the place to be searched, and the persons
or things to be seized.
The 5th Amendment states:
No person shall be held to answer for a capital, or otherwise infamous crime,
unless on a presentment or indictment of a Grand Jury, except in cases
arising in the land or naval forces, or in the Militia, when in actual service in
time of War or public danger; nor shall any person be subject for the same
offence to he twice put in jeopardy of life or limb? nor shall be compelled in
any criminal case to be a witness against himself, nor be deprived of life,
liberty, or property, without due process of law! nor shall private property be
taken for public use, without just compensation.

The Sixth Amendment states,
In all criminal prosecutions, the accused shall enjoy the right to a speedy and
public trial, by an impartial jury of the State and district wherein the crime
shall have been committed, which district shall have been previously
ascertained by law, and to be informed of the nature and cause of the
accusation; to be confronted with the witnesses against him; to have

USA vVerkler 21-30098

Lxxvi

•

compulsory process for obtaining witnesses in bis favor, and to have the
Assistance of Counsel for bis defence.

28 U.S. Code § 2250.1ndigent petitioner entitled to documents without cost
If on any application for a writ of habeas corpus an order has been made
permitting the petitioner to prosecute the application in forma pauperis, the
clerk of any court of the United States shall furnish to the petitioner without cost
certified copies of such documents or parts of the record on file in his office as
may be required by order of the judge before whom the application is pending.

Federal Rule of Criminal Procedure 3 states, “Rule 3. The Complaint The complaint
is a written statement of the essential facts constituting the offense charged. Except as
provided in Rule 4.1. it must be made under oath before a magistrate judge...”

Federal Rule of Criminal Procedure 4 states,
Rule 4 Arrest Warrant or Summons on a Complaint
(a) ISSUANCE. If the complaint or one or more affidavits filed with the
complaint establish probable cause to believe that an offense has been
committed and that the defendant committed it, the judge must issue an
arrest warrant to an officer authorized to execute it. At the request of an
attorney for the government, the judge must issue a summons, instead of a
warrant, to a person authorized to serve it....
(b) Form.
(l) Warrant. A warrant must'...
(D) be signed by a judge.
(c) Execution on Service, and Return.
(1) By Whom. Only a marshal or other authorized officer may execute a
warrant...
Federal Rule of Criminal Procedure 5 states, “Rule 5 Initial
Appearance
(a) In General.
(1) Appearance Upon an Arrest.
USA vVerkler 21-30098

Lxxvii

(A) A person making an arrest within the United States must take the
defendant without unnecessary delay before a magistrate judge...
(b) Arrest Without a Warrant. If a defendant is arrested without a
warrant, a complaint meeting Rule 4(a)’s requirement of probable cause must
be promptly filed in the district where the offense was allegedly committed.
(c) Place of Initial appearance; Transfer to Another District.
(l) Arrest in the District Where the Offense Was Allegedly Committed. If
the defendant is arrested in the district where the offense was allegedly
committed*
(A) the initial appearance must be in that district;...
(3) Procedures in a District Other Than Where the Offense Was Allegedly
Committed. If the initial appearance occurs in a district other than where the
offense was allegedly committed, the following procedures apply:
(A) the magistrate judge must inform the defendant about the provisions
of Rule 20;
(B) if the defendant was arrested without a warrant, the district court
where the offense was allegedly committed must first issue a warrant before
the magistrate judge transfers the defendant to that district;
(C) the magistrate judge must conduct a preliminary hearing if required
by Rule 5.IJ
(D) the magistrate judge must transfer the defendant to the district where
the offense was allegedly committed i£
(i) the government produces the warrant, a certified copy of the warrant, or
a reliable electronic form of either; and
(ii) the judge finds that the defendant is the same person named in the
indictment, information, or warrant; and
(E) when a defendant is transferred and discharged, the clerk must
promptly transmit the papers and any bail to the clerk in the district where
the offense was allegedly committed.

(d) Procedure in a Felony Case.
U) Advice. If the defendant is charged with a felony, the judge must inform
the defendant of the following*
(A) the complaint against the defendant, and any affidavit filed with it;
(B) the defendant’s right to retain counsel or to request that counsel be
appointed if the defendant cannot obtain counsel)
(C) the circumstances, if any, under which the defendant may secure
pretrial release)
(D) any right to a preliminary hearing; §§§
USA vVerkler 21-30098

Lxxviii

(E) the defendant's right not to make a statement, and that any statement
made may be used against the defendant'...
2) Consulting with Counsel The judge must allow the defendant
reasonable opportunity to consult with counsel.
(3) Detention or Release. The judge must detain or release the defendant
as provided by statute or these rules.
(4) Plea. A defendant may be asked to plead only under Rule 10.

Rule 11. Pleas
(a) Entering a plea.
(1) In General A defendant may plead not guilty, guilty, or (with the
court’s consent) nolo contendere.
(4) Failure to Enter a Plea. If a defendant refuses to enter a plea or if a
defendant organization fails to appear, the court must enter a plea of not

guilty.
(b) Considering and Accepting a Guilty or Nolo Contendere Plea.
(1) Advising and Questioning the Defendant Before the court accepts a
plea of guilty or nolo contendere, the defendant may be placed under oath,
and the court must address the defendant personally in open court. During
this address, the court must inform the defendant of, and determine that the
defendant understands, the following(A) the government's right, in a prosecution for perjury or false statement,
to use against the defendant any statement that the defendant gives under
oath;
(B) the right to plead not guilty, or having already so pleaded, to persist in
that plea!
(C) the right to a jury trial;
(D) the right to be represented by counsel—and if necessary have the court
appoint counsel—at trial and at every other stage of the proceeding;
(E) the right at trial to confront and cross-examine adverse witnesses, to be
protected from compelled self-incrimination, to testify and present evidence,
and to compel the attendance of witnesses;
(F) the defendant's waiver of these trial rights if the court accepts a plea of
guilty or nolo contendere;
(G) the nature of each charge to which the defendant is pleading;
(H) any maximum possible penalty, including imprisonment, fine, and
term of supervised release!
USA vVerkler 21*30098

Lxxix

(1) any mandatory minimum penalty;
(J) any applicable forfeiture;
(K) the court's authority to order restitution;
(U the court's obligation to impose a special assessment;
(M) in determining a sentence, the court's obligation to calculate the
applicable sentencing-guideline range and to consider that range, possible
departures under the Sentencing Guidelines, and other sentencing factors
under 18U.S.C. §3553(a);
(N) the terms of any plea-agreement provision waiving the right to appeal
or to collaterally attack the sentence; and
(O) that, if convicted, a defendant who is not a United States citizen may
be removed from the United States, denied citizenship, and denied admission
to the United States in the future.
(2) Ensuring That a Plea Is Voluntary. Before accepting a plea of guilty or
nolo contendere, the court must address the defendant personally in open
court and determine that the plea is voluntary and did not result from force,
threats, or promises (other than promises in a plea agreement).
(3) Determining the Factual Basie for a Plea. Before entering judgment on
a guilty plea, the court must determine that there is a factual basis for the
plea.
(c) Plea Agreement Procedure.
(1) In General An attorney for the government and the defendant's
attorney, or the defendant when proceeding pro se, may discuss and reach a
plea agreement. The court must not participate in these discussions. If the
defendant pleads guilty or nolo contendere to either a charged offense or a
lesser or related offense, the plea agreement may specify that an attorney for
the government will:
(A) not bring, or will move to dismiss, other charges!
(B) recommend, or agree not to oppose the defendant's request, that a
particular sentence or sentencing range is appropriate or that a particular
provision of the Sentencing Guidelines, or policy statement, or sentencing
factor does or does not apply (such a recommendation or request does not
bind the court); or
(C) agree that a specific sentence or sentencing range is the appropriate
disposition of the case, or that a particular provision of the Sentencing
Guidelines, or policy statement, or sentencing factor does or does not apply
(such a recommendation or request binds the court once the court accepts the
plea agreement).
(2) Disclosing a Plea Agreement. The parties must disclose the plea
agreement in open court when the plea is offered, unless the court for good
cause allows the parties to disclose the plea agreement in camera.
USA vVerkler 21-30098

Lxxx

(3) Judicial Consideration ofa Plea Agreement.
(A) To the extent the plea agreement is of the type specified in Rule
11(c)(1)(A) or (C), the court may accept the agreement, reject it, or defer a
decision until the court has reviewed the presentence report.
(B) To the extent the plea agreement is of the type specified in Rule
11(c)(1)(B), the court must advise the defendant that the defendant has no
right to withdraw the plea if the court does not follow the recommendation or
request.
(4) Accepting a Plea Agreement. If the court accepts the plea agreement, it
must inform the defendant that to the extent the plea agreement is of the
type specified in Rule 11(c)(1)(A) or (C), the agreed disposition will be
included in the judgment.
(5) Rejecting a Plea Agreement If the court rejects a plea agreement
containing provisions of the type specified in Rule 11(c)(1)(A) or (C), the court
must do the following on the record and in open court (or, for good cause, in
camera):
(A) inform the parties that the court rejects the plea agreement;
(B) advise the defendant personally that the court is not required to follow
the plea agreement and give the defendant an opportunity to withdraw the
plea; and
(C) advise the defendant personally that if the plea is not withdrawn, the
court may dispose of the case less favorably toward the defendant than the
plea agreement contemplated.
(d) Withdrawing a Guilty or Nolo Contendere Plea. A defendant may
withdraw a plea of guilty or nolo contendere:
(1) before the court accepts the plea, for any reason or no reason; or
(2) after the court accepts the plea, but before it imposes sentence ifi
(A) the court rejects a plea agreement under 11(c)(6); or
(B) the defendant can show a fair and just reason for requesting the
withdrawal.
(e) Finality of a Guilty or Nolo Contendere Plea. After the court
imposes sentence, the defendant may not withdraw a plea of guilty or nolo
contendere, and the plea may be set aside only on direct appeal or collateral
attack.
(f) Admissibility or Inadmissibility of a Plea, Plea Discussions, and
REIATED STATEMENTS. The admissibility or inadmissibility of a plea, a plea
discussion, and any related statement is governed by Federal Rule of
Evidence 410.
(g) Recording the Proceedings. The proceedings during which the
defendant enters a plea must be recorded by a court reporter or by a suitable
USA v Verkler 21-30098

Lxxxi

recording device. If there is a guilty plea or a nolo contendere plea, the record
must include the inquiries and advice to the defendant required under Rule
11(b) and (c).
(h) HARMLESS Error. A variance from the requirements of this rule is
harmless error if it does not affect substantial rights.

Federal Rule of Criminal Procedure Rule 16 says, Discovery and
Inspection
(a) Government's disclosure.
(1) Information Subject to Disclosure.
(A) Defendant’s Oral Statement Upon a defendant’s request, the •
government must disclose to the defendant the substance of any relevant oral
statement made by the defendant, before or after arrest, in response to
interrogation by a person the defendant knew was a government agent if the
government intends to use the statement at trial.
(B) Defendant's Written or Recorded Statement Upon a defendant's
request, the government must disclose to the defendant, and make available
for inspection, copying, or photographing, all of the following:
(i) any relevant written or recorded statement by the defendant if:
• statement is within the government’s possession, custody, or controls and
• the attorney for the government knows—or through due diligence could
know—that the statement exists)
(ii) the portion of any written record containing the substance of any
relevant oral statement made before or after arrest if the defendant made the
statement in response to interrogation by a person the defendant knew was a
government agent) and
(iii) the defendant's recorded testimony before a grand jury relating to the
charged offense.
(C) Organizational Defendant. Upon a defendant's request, if the defendant
is an organization, the government must disclose to the defendant any
statement described in Rule 16(a)(1)(A) and (B) if the government contends
that the person making the statement:
(i) was legally able to bind the defendant regarding the subject of the
statement because of that person's position as the defendant's director,
officer, employee, or agent) or
(ii) was personally involved in the alleged conduct constituting the offense
and was legally able to bind the defendant regarding that conduct because of
that person's position as the defendant’s director, officer, employee, or agent.
USA v Verkler 21-30098

Lxxxii

(D) Defendant’s Prior Record. Upon a defendant's request, the government
must furnish the defendant with a copy of the defendant's prior criminal
record that is within the government's possession, custody, or control if the
attorney for the government knows—or through due diligence could know—
that the record exists.
(E) Documents and Objects. Upon a defendant's request, the government
must permit the defendant to inspect and to copy or photograph books,
papers, documents, data, photographs, tangible objects, buildings or places,
or copies or portions of any of these items, if the item is within the
government's possession, custody, or control and(i) the item is material to preparing the defense*
(ii) the government intends to use the item in its case*in*chief at trial; or
dii) the item was obtained from or belongs to the defendant.

Federal Rule of Criminal Procedure 41 states, “Rule 41. Search and Seizure
(a) Scope and Definitions.
(1) Scope. This rule does not modify any statute regulating search or
seizure, or the issuance and execution of a search warrant in special
circumstances.
(2) Definitions. The following definitions apply under this rule(A) “Property” includes documents, books, papers, any other tangible
objects, and information.
(B) “Daytime” means the hours between 6:00 a.m. and 10:00 p.m. according
to local time.
(C) “Federal law enforcement officer” means a government agent (other
than an attorney for the government) who is engaged in enforcing the
criminal laws and is within any category of officers authorized by the
Attorney General to request a search warrant.
(D) “Domestic terrorism” and “international terrorism” have the meanings
set out in 18 U.S.C. §2331.
(E) “Tracking device” has the meaning set out in 18 U.S.C. §3117 (b).
(b) VENUE FOR A WARRANT APPLICATION. At the request of a federal law
enforcement officer or an attorney for the government:
(l) a magistrate judge with authority in the district—or if none is
reasonably available, a judge of a state court of record in the district—has
authority to issue a warrant to search for and seize a person or property
located within the district;

USA Werkler 21-30098

Lxxxiii

(2) a magistrate judge with authority in the district has authority to issue
a warrant for a person or property outside the district if the person or
property is located within the district when the warrant is issued but might
move or be moved outside the district before the warrant is executed;
(3) a magistrate judge—in an investigation of domestic terrorism or
international terrorism—with authority in any district in which activities
related to the terrorism may have occurred has authority to issue a warrant
for a person or property within or outside that district;
(4) a magistrate judge with authority in the district has authority to issue
a warrant to install within the district a tracking device; the warrant may
authorize use of the device to track the movement of a person or property
located within the district) outside the district, or both; and
(6) a magistrate judge having authority in any district where activities
related to the crime may have occurred, or in the District of Columbia, may
issue a warrant for property that is located outside the jurisdiction of any
state or district, but within any of the following:
(A) a United States territory, possession, or commonwealth;
(B) the premises—no matter who owns them—of a United States
diplomatic or consular mission in a foreign state, including any appurtenant
building, part of a building, or land used for the mission's purposes; or
(C) a residence and any appurtenant land owned or leased by the United
States and used by United States personnel assigned to a United States
diplomatic or consular mission in a foreign state.
(6) a magistrate judge with authority in any district where activities
related to a crime may have occurred has authority to issue a warrant to use
remote access to search electronic storage media and to seize or copy
electronically stored information located within or outside that district if*
(A) the district where the media or information is located has been
concealed through technological means; or
CB) in an investigation of a violation of 18 U.S.C. § 1030(a)(5), the media
are protected computers that have been damaged without authorization and
are located in five or more districts.
(c) Persons or Property Subject to Search or Seizure. A warrant may
be issued for any of the following:
(1) evidence of a crime;
(2) contraband, fruits of crime, or other items illegally possessed;
(3) property designed for use, intended for use, or used in committing a
crime; or
(4) a person to be arrested or a person who is unlawfully restrained.
(d) Obtaining a Warrant.
USA vVerkler 21-30098

Lxxxiv

(1) In General. After receiving an affidavit or other information, a
magistrate judge—or if authorized by Rule 41(b), a judge of a state court of
record—must issue the warrant if there is probable cause to search for and
seize a person or property or to install and use a tracking device.
(2) Requesting a Warrant in the Presence ofa Judge.
(A) Warrant on an Affidavit When a federal law enforcement officer or an
attorney for the government presents an affidavit in support of a warrant,
the judge may require the affiant to appear personally and may examine
under oath the affiant and any witness the affiant produces.
(B) Warrant on Sworn Testimony. The judge may wholly or partially
dispense with a written affidavit and base a warrant on sworn testimony if
doing so is reasonable under the circumstances.
(C) Recording Testimony. Testimony taken in support of a warrant must be
recorded by a court reporter or by a suitable recording device, and the judge
must file the transcript or recording with the clerk, along with any affidavit.
(3) Requesting a Warrant by Telephonic or Other Reliable Electronic
Means. In accordance with Rule 4.1, a magistrate judge may issue a warrant
based on information communicated by telephone or other reliable electronic
means.
(e) Issuing the warrant.
(1) In General. The magistrate judge or a judge of a state court of record
must issue the warrant to an officer authorized to execute it.
(2) Contents ofthe Warrant.
(A) Warrant to Search for and Seize a Person or Property. Except for a
tracking-device warrant, the warrant must identify the person or property to
be searched, identify any person or property to be seized, and designate the
magistrate judge to whom it must be returned. The warrant must command
the officer to'
(i) execute the warrant within a specified time no longer than 14 days!
(ii) execute the warrant during the daytime, unless the judge for good
cause expressly authorizes execution at another time! and
(iii) return the warrant to the magistrate judge designated in the warrant.
(B) Warrant Seeking Electronically Stored Information. A warrant
under Rule 41(e)(2)(A) may authorize the seizure of electronic storage media
or the seizure or copying of electronically stored information. Unless
otherwise specified, the warrant authorizes a later review of the media or
information consistent with the warrant. The time for executing the warrant
in Rule 41(e)(2)(A) and (f)(1)(A) refers to the seizure or on-site copying of the
media or information, and not to any later off-site copying or review.
(C) Warrant for a 'Tracking Device. A tracking-device warrant must
identify the person or property to be tracked, designate the magistrate judge
USA vVerkler 21*30098

Lxxxv

to whom it must be returned, and specify a reasonable length of time that the
device may be used. The time must not exceed 46 days from the date the
warrant was issued. The court may, for good cause, grant one or more
extensions for a reasonable period not to exceed 46 days each. The warrant
must command the officer to*
(i) complete any installation authorized by the warrant within a specified
time no longer than 10 days;
Gi) perform any installation authorized by the warrant during the daytime,
unless the judge for good cause expressly authorizes installation at another
time; and
Gii) return the warrant to the judge designated in the warrant.
(0 Executing and Returning the Warrant.
(1) Warrant to Search for and Seize a Person or Property.
(A) Noting the Time. The officer executing the warrant must enter on it the
exact date and time it was executed.
(B) Inventory. An officer present during the execution of the warrant must
prepare and verify an inventory of any property seized. The officer must do so
in the presence of another officer and the person from whom, or from whose
premises, the property was taken. If either one is not present, the officer
must prepare and verify the inventory in the presence of at least one other
credible person. In a case involving the seizure of electronic storage media or
the seizure or copying of electronically stored information, the inventory may
be limited to describing the physical storage media that were seized or
copied. The officer may retain a copy of the electronically stored information
that was seized or copied.
(C) Receipt. The officer executing the warrant must give a copy of the
warrant and a receipt for the property taken to the person from whom, or
from whose premises, the property was taken or leave a copy of the warrant
and receipt at the place where the officer took the property. For a warrant to
use remote access to search electronic storage media and seize or copy
electronically stored information, the officer must make reasonable efforts to
serve a copy of the warrant and receipt on the person whose property was
searched or who possessed the information that was seized or copied. Service
may be accomplished by any means, including electronic means, reasonably
calculated to reach that person.
(D) Return. The officer executing the warrant must promptly return it—
together with a copy of the inventory—to the magistrate judge designated on
the warrant. The officer may do so by reliable electronic means. The judge
must, on request, give a copy of the inventory to the person from whom, or
from whose premises, the property was taken and to the applicant for the
warrant.
(2) Warrant for a Tracking Device.
USA vVerkler 21-30098

Lxxxvi

(A) Noting the Time. The officer executing a tracking-device warrant must
enter on it the exact date and time the device was installed and the period
during which it was used.
(B) Return. Within 10 days after the use of the tracking device has ended,
the officer executing the warrant must return it to the judge designated in
the warrant. The officer may do so by reliable electronic means.
(C) Service. Within 10 days after the use of the tracking device has ended,
the officer executing a tracking-device warrant must serve a copy of the
warrant on the person who was tracked or whose property was tracked.
Service may be accomplished by delivering a copy to the person who, or
whose property, was tracked; or by leaving a copy at the person's residence or
usual place of abode with an individual of suitable age and discretion who
resides at that location and by mailing a copy to the person's last known
address. Upon request of the government, the judge may delay notice as
provided in Rule 41(f)(3).
(3) Delayed Notice. Upon the government's request, a magistrate judge—or
if authorized by Rule 41(b), a judge of a state court of record—may delay any
notice required by this rule if the delay is authorized by statute.
(g) Motion to Return Property. A person aggrieved by an unlawful search
and seizure of property or by the deprivation of property may move for the
property's return. The motion must be filed in the district where the property
was seized. The court must receive evidence on any factual issue necessary to
decide the motion. If it grants the motion, the court must return the property
to the movant, but may impose reasonable conditions to protect access to the
property and its use in later proceedings.
(h) MOTION to Suppress. A defendant may move to suppress evidence in the
court where the trial will occur, as Rule 12 provides.
(i) Forwarding Papers to the Clerk. The magistrate judge to whom the
warrant i9 returned must attach to the warrant a copy of the return, of the
inventory, and of all other related papers and must deliver them to the clerk
in the district where the property was seized.

RIGHT TO ASSISTANCE OF COUNSEL
The 6th Amendment says,
In all criminal prosecutions, the accused shall enjoy the right to a speedy and
public trial by an impartial jury of the state and district wherein the crime
have been committed,... and to be informed of the nature and cause of the
accusation; to be confronted with the witnesses against him; to have
compulsory process for obtaining witnesses in his favor; and to have the
assistance of counsel for his defense."
USA v Verkler 21-30098

Lxxxvii

18 U.S. Code § 3006A states,
Adequate representation of defendants
(a) Choice OF Plan.—-Each United States district court, with the approval of
the judicial council of the circuit, shall place in operation throughout the
district a plan for furnishing representation for any person financially unable
to obtain adequate representation in accordance with this section.
Representation under each plan shall include counsel and investigative,
expert, and other services necessary for adequate representation. Each plan
shall provide the following(l) Representation shall be provided for any financially eligible person who—
(A) is charged with a felony or a Class A misdemeanor;...
(E) is charged with a violation of supervised release or faces modification,
reduction, or enlargement of a condition, or extension or revocation of a
term of supervised release;
CH) is entitled to appointment of counsel under the sixth amendment to
the Constitution;
(I) faces loss of liberty in a case, and Federal law requires the
appointment of counsel; or
(J) is entitled to the appointment of counsel under section 4109 of this
title.
(2) Whenever the United States magistrate judge or the court determines
that the interests of justice so require, representation may be provided for
any financially eligible person who—
(A) is charged with a Class B or C misdemeanor, or an infraction for
which a sentence to confinement is authorized; or
(B) is seeking relief under section 2241, 2254, or 2255 of title 28.
(3) Private attorneys shall be appointed in a substantial proportion of the
cases. Each plan may include, in addition to the provisions for private
attorneys, either of the following or both;
(A) Attorneys furnished by a bar association or a legal aid agency,
(B) Attorneys fiirnished by a defender organization established in
accordance with the provisions of subsection (g)...

USA v Verkler 21-30098

Lxxxviii

(b) Appointment of Counsel —
Counsel furnishing representation under the plan shall be selected from a
panel of attorneys designated or approved by the court, or from a bar
association, legal aid agency, or defender organization furnishing
representation pursuant to the plan. In every case in which a person entitled
to representation under a plan approved under subsection (a) appears
without counsel, the United States magistrate judge or the court shall advise
the person that he has the right to be represented by counsel and that
counsel will be appointed to represent him if he is financially unable to
obtain counsel. Unless the person waives representation by counsel, the
United States magistrate judge or the court, if satisfied after appropriate
inquiry that the person is financially unable to obtain counsel, shall appoint
counsel to represent him. Such appointment may be made retroactive to
include any representation furnished pursuant to the plan prior to
appointment. The United States magistrate judge or the court shall appoint
separate counsel for persons having interests that cannot properly be
represented by the same counsel, or when other good cause is shown.
(c) Duration and Substitution of Appointments —
A person for whom counsel is appointed shall be represented at every stage of
the proceedings from his initial appearance before the United States
magistrate judge or the court through appeal, including ancillary matters
appropriate to the proceedings. If at any time after the appointment of
counsel the United States magistrate judge or the court finds that the person
is financially able to obtain counsel or to make partial payment for the
representation, it may terminate the appointment of counsel or authorize
payment as provided in subsection (£), as the interests of justice may dictate.
If at any stage of the proceedings, including an appeal, the United States
magistrate judge or the court finds that the person is financially unable to
pay counsel whom he had retained, it may appoint counsel as provided in
subsection (b) and authorize payment as provided in subsection (d), as the
interests of justice may dictate. The United States magistrate judge or the
court may, in the interests of justice, substitute one appointed counsel for
another at any stage of the proceedings....
(D) Considerations.—The interests referred to in subparagraphs (B) and
(C) are—
(i) to protect any person’s 5th amendment right against selfincrimination;
(ii) to protect the defendant’s 6th amendment rights to effective
assistance of counsel;
Gii) the defendant’s attorney-client privilege;
Gv) the work product privilege of the defendant’s counsel;
(v) the safety of any person; and
USA v Verkler 21-30098

Lxxxix

(vi) any other interest that justice may require, except that the amount
of the fees shall not be considered a reason justifying any limited
disclosure under section 3006A(d)(4) of title 18. United States Code.
Fed. R, Crim. P. 6 - Initial Appearance
(a) In General.
(1) Appearance Upon an Arrest.
(A) A person making an arrest within the United States must take the
defendant without unnecessary delay before a magistrate judge, or before a
state or local judicial officer as Rule 5(c) provides, unless a statute provides
otherwise.
(d) Procedure in a Felony Case.
(1) Advice. If the defendant is charged with a felony, the judge must inform
the defendant of the following*
(A) the complaint against the defendant, and any affidavit filed with it;
(B) the defendant's right to retain counsel or to request that counsel be
appointed if the defendant cannot obtain counsel'
(D) any right to a preliminary hearing; and
(E) the defendant’s right not to make a statement, and that any statement
made may be used against the defendant.
(2) Consulting with Counsel. The judge must allow the defendant reasonable
opportunity to consult with counsel.

Fed. Rule of Crim. Proc. 11 states, "Rule 11. Pleas...
(b) CONSIDERING AND ACCEPTING A GUILTY OR NOIX) CONTENDERE PLEA.
(l) Advising and Questioning the Defendant. Before the court accepts a
plea of guilty or nolo contendere, the defendant may be placed under oath,
and the court must address the defendant personally in open court. During
this address, the court must inform the defendant of, and determine that the
defendant understands, the following;...
(D) the right to be represented by counsel—and if necessary have the
court appoint counsel—at trial and at every other stage of the proceeding;...
USA v Verkler 21-30098

Lxxxx

(IO the court's authority to order restitution;...
(2) Ensuring That a Plea Is Voluntary, Before accepting a plea of guilty
or nolo contendere, the court must address the defendant personally in open
court and determine that the plea is voluntary and did not result from force,
threats, or promises (other than promises in a plea agreement).
(3) Determining the Factual Basis for a Plea. Before entering judgment
on a guilty plea, the court must determine that there is a factual basis for the
plea.
(c) Plea Agreement Procedure...
(3) Judicial Consideration ofa Plea Agreement.
(4) Accepting a Plea Agreement. If the court accepts the plea agreement, it
must inform the defondant that to the extent the plea agreement is of the
type specified in Rule 11(c)(1)(A) or {££), the agreed disposition will be
included in the judgment.
(5) Rejecting a Plea Agreement If the court rejects a plea agreement
containing provisions of the type specified in Rule 11(c)(1)(A) or (C), the court
must do the following on the record and in open court (or, for good cause, in
camera):
(A) inform the parties that the court rejects the plea agreement)
(B) advise the defendant personally that the court is not required to follow
the plea agreement and give the defendant an opportunity to withdraw the
plea) and
(C) advise the defendant personally that if the plea is not withdrawn, the
court may dispose of the case less favorably toward the defendant than the
plea agreement contemplated.
(d) Withdrawing a Guilty or Nolo Contendere Plea. A defendant may
withdraw a plea of guilty or nolo contendere:...
(2) after the court accepts the plea, but before it imposes sentence ifi
(A) the court rejects a plea agreement under 11(c)(5); or
(B) the defendant can show a fair and just reason for requesting the
withdrawal....
(0 Admissibility or Inadmissibility of a Plea, Plea Discussions, and
Related Statements. The admissibility or inadmissibility of a plea, a plea
discussion, and any related statement is governed by Federal Rule of
Evidence 410.
(g) Recording the Proceedings. The proceedings during which the
defendant enters a plea must be recorded by a court reporter or by a suitable
recording device. If there is a guilty plea or a nolo contendere plea, the record
must include the inquiries and advice to the defendant required under Rule
11(b) and (c),..
USA vVerkler 21-30098

Lxxxxi

Fed. Rule of Crim. Proc. 44 states, "Rule 44. Right to and Appointment of
Counsel
(a) Right to Appointed Counsel. A defendant who is unable to obtain
counsel is entitled to have counsel appointed to represent the defendant at
every stage of the proceeding from initial appearance through appeal, unless
the defendant waives this right.
(b) Appointment Procedure. Federal law and local court rules govern the
procedure for implementing the right to counsel.

DOUBLE JEOPARDY PROHIBITED and USA CANNOT SEIZE PROPERTY WITHOUT
JUST COMPENSATION AND DUE PROCESS

The Fifth Amendment states,
No person shall be held to answer for a capital, or otherwise infamous crime,
unless on a presentment or indictment of a Grand Jury, except in cases
arising in the land or naval forces, or in the Militia, when in actual service in
time of War or public danger; nor shall any person be subject for the same
offence to be twice put in jeopardy of life or limb; nor shall be compelled in
any criminal case to be a witness against himself, nor be deprived of life,
liberty, or property, without due process of law; nor shall private property be
taken for public use, without just compensation.

42 U$C §2000h-l states,
Double jeopardy; specific crimes and criminal contempts. No person should
be put twice in jeopardy under the laws of the United States for the same act
or omission. For this reason, an acquittal or conviction in a prosecution for a
specific crime under the laws of the United States shall bar a proceeding for
criminal contempt, which is based upon the same act or omission and which
arises under the provisions of this Act; and an acquittal or conviction in a
proceeding for criminal contempt, which arises under the provisions of this
Act, shall bar a prosecution for a specific crime under the laws of the United
States based upon the same act or omission.”

USA v Verkler 21-30098

Lxxxxii

Rule 41. Dismissal of Actions
(a) Voluntary Dismissal.
(1) By the Plaintiff.
(A) Without a Court Order. Subject to Rules 23(e), 23.1(c), 23.2, and 66 and
any applicable federal statute, the plaintiff may dismiss an action without a
court order by filing*
(1) a notice of dismissal before the opposing party serves either an answer
or a motion for summary judgment; or
00 a stipulation of dismissal signed by ail parties who have appeared.
(B) Effect Unless the notice or stipulation states otherwise, the dismissal
is without prejudice. But if the plaintiff previously dismissed anv federal* or
state-court action based on or including the same claim, a notice of dismissal
operates as an adjudication on the merits.
(2) By Court Order; Effect Except as provided in Rule 41(a)(1), an action
may be dismissed at the plaintiffs request only by court order, on terms that
the court considers proper. If a defendant has pleaded a counterclaim before
being served with the plaintiffs motion to dismiss, the action may be
dismissed over the defendant's objection only if the counterclaim can remain
pending for independent adjudication. Unless the order states otherwise, a
dismissal under this paragraph (2) is without prejudice.
(b) Involuntary Dismissal; Effect, If the plaintiff fails to prosecute or to
comply with these rules or a court order, a defendant may move to dismiss
the action or any claim against it. Unless the dismissal order states
otherwise, a dismissal under this subdivision (b) and any dismissal not under
this rule—except one for lack of jurisdiction, improper venue, or failure to
join a party under Rule 19—operates as an adjudication on the merits.
(c) Dismissing a Counterclaim, Crossclaim, or Third-Party Claim. This
rule applies lx> a dismissal of any counterclaim, crossclaim, or third-party
claim. A claimant's voluntary dismissal under Rule 41(a)(l)(A)(i) must be
made;
(1) before a responsive pleading is served; or
(2) if there is no responsive pleading, before evidence is introduced at a
hearing or trial.
(d) Costs of a Previously Dismissed Action. If a plaintiff who previously
dismissed an action in any court files an action based on or including the
same claim against the same defendant, the court;
(1) may order the plaintiff to pay all or part of the cost9 of that previous
action; and
(2) may stay the proceedings until the plaintiff has complied.

USA v VerKier

Lxxxxiii

J

WAC 192-100-050 states,
Fraud defined.
(1) For purposes of JtCW 50.20.070. 50,20.190. and chapter 192*
220 WAC, fraud means an action by an individual where all of the following
elements are present(a) The individual has made a statement or provided information.
(b) The statement was false.
(c) The individual either knew the statement was false or did not know
whether it was true or false when making it.
(d) The statement concerned a fact that was material to the
individual's rights and benefits under Title 50 ROW.
(e) The individual made the statement with the intent that the
department would rely on it when taking action.
(2) To decide whether an individual has committed fraud, the
elements in subsection (l) must be shown by clear, cogent, and convincing
evidence. Fraud cannot be presumed. Circumstantial evidence, rather than
direct evidence, is enough to establish fraud if the evidence is clear, cogent,
and convincing.
(3) This definition of fraud also applies to the term
"misrepresentation" in RCW 50.20.190. A violation of RCW 50.20.070 must
meet this definition of fraud.
WAC 192-110*150 states,
May I have an individual with power of attorney or other authorization file
an initial or weekly claim for benefits, testify in my place, or otherwise certify
on my behalf?
No. RCW 9A.72.085 requires that an oath, certification, verification or
declaration must be signed or sworn to by the person making it. (Exception’
An estate executor or administrator may file a claim for the last completed
calendar week prior to a claimant's death.)
(1) You are required to personally certify on your initial application for
benefits and weekly claims that the information provided to the department
is correct.
(2) An individual with power of attorney may not testify in your place
in any adjudicative proceeding. Such individual may file an appeal on your
behalf if he or she provides the department with a copy of the document
granting him or her power of attorney. Such individual may also be called as

USA vVerkler 21-30098

Lxxxxiv

a witness on your behalf or assist with the preparation of your case but you
must provide sworn testimony in support of your appeal.
(3) An agent with power of attorney may not otherwise act on your
behalf when statutes or regulations specifically or implicitly require your
signature or personal certification.

WAC 192-220-020 states,
When does the department consider me at fault for an overpayment?
(1) The department will decide if you are at fault for an overpayment
based on information provided by you and your employer and from
information contained in the department's records. You will be considered at
fault:
(a) When the overpayment is the result of fraud, misrepresentation, or
willful nondisclosure; or
(b) When all of the following three elements are present:
(1) You were paid benefits in an amount greater than you were entitled
to receive and you kept those benefits; and
(ii) You provided incorrect information, did not disclose information
which you should have provided, or you caused another person to fail to
disclose information; and
(iii) You had notice that the information should have been reported
including, but not limited to, written communications from the department
such as the unemployment claims kit and directives.
(2) You may be considered at fault, even though you provided the
department with all relevant information before a decision was issued, when
you should reasonably have known the payment was improper. The following
are some, but not all, examples where you should reasonably have known
that a payment was improper. These are examples only and do not mean that
the department would rule in this manner in every such situation,
(a) You correctly reported earnings but the department paid benefits
at the full amount or incorrectly deducted the earnings.
(b) You reported that you were unavailable for one or more customary
work days, but the department paid at the full amount and the payment was
not a conditional payment.
(c) You received a retroactive pension payment that you had applied
for and were reasonably sure would be awarded.
USA v Verkler 21“30098

Lxxxxv

(d) You did not inform the department that you were eligible for
benefits on an unexpired claim against another state.
(e) A lower level decision was reversed by the office of administrative
hearings, the commissioner, or a court because of new information that you
did not disclose to the department.
(£> Other circumstances in which the department finds you knew the
payment was improper.
(3) In deciding if you are at fault, the department will also consider
your education, mental abilities, emotional state, experience with claiming
unemployment benefits, and other personal factors which affect your ability
to report all relevant information to the department. This includes any
written information provided to you by the department.
(4) You are not at fault when you provided the department with all
relevant information before a decision was issued and you would not
reasonably have known the payment was improper. The following are some,
but not all, examples of instances in which you may not reasonably have
known that a payment was improper. These are examples only and do not
mean that the department would rule in this manner in every such situation.
(a) The department removed a payment stop in error, resulting in
improper payment.
(b) You received a retroactive pension which was backdated by the
pension source, not at your request.
(c) A combined wage or federal claim was filed against Washington
that should have been filed against another state.
(d) Extended benefits were paid by the department when you would
have been eligible for a new claim against Wasliington or another state.
(e) A lower level decision, in which you had provided all information,
was reversed by the office of administrative hearings, the commissioner, or a
court.
(f) Other circumstances in which the department finds you did not
know the payment was improper.

RCW 50.20.070 states.
Disqualification for misrepresentation—Penalties,
(1) With respect to determinations delivered or mailed before January
1, 2008, an individual is disqualified for benefits for any week he or she has
USA vVerkler 21-30098

Lxxxxvi

knowingly made a false statement or representation involving a material fact
or knowingly failed to report a material fact and, as a result, has obtained or
attempted to obtain any benefits under the provisions of this title, and for an
additional twenty-six weeks beginning with the first week for which he or she
completes an otherwise compensable claim for waiting period credit or
benefits following the date of the delivery or mailing of the determination of
disqualification under this section. However, such disqualification shall not
be applied after two years have elapsed from the date of the delivery or
mailing of the determination of disqualification under this section.
(2) With respect to determinations delivered or mailed on or after
January 1, 2008:
(a) An individual is disqualified for benefits for any week he or she has
knowingly made a false statement or representation involving a material fact
or knowingly failed to report a material feet and, as a result, has obtained or
attempted to obtain any benefits under the provisions of this title;
(b) An individual disqualified for benefits under this subsection for the
first time is also:
(i) Disqualified for an additional twentysix weeks beginning with the
Sunday of the week in which the determination is mailed or delivered; and
(ii) With respect to determinations delivered or mailed on or after
October 20, 2013, subject to an additional penalty of fifteen percent of the
amount of benefits overpaid or deemed overpaid;
(c) An individual disqualified for benefits under this subsection for the
second time is also disqualified for an additional fifty-two weeks beginning
with the Sunday of the week in which the determination is mailed or
delivered, and is subject to an additional penalty of twenty-five percent of the
amount of benefits overpaid or deemed overpaid;
(d) An individual disqualified for benefits under this subsection a third
time and any time thereafter is also disqualified for an additional one
hundred four weeks beginning with the Sunday of the week in which the
determination is mailed or delivered, and is subject to an additional penalty
of fifty percent of the amount of benefits overpaid or deemed overpaid.
(3) All penalties collected under this section must be expended for the
proper administration of this title as authorized under RCW 60.16.010 and
for no other purposes.
(4) All overpayments and penalties established by such determination
of disqualification must be collected as otherwise provided by this title.

USA vVerkler 21-30098

Lxxxxvii

RCW 9.35.Q2Q savs.
Identity theft.
(1) No person may knowingly obtain, possess, use, or transfer a means
of identification or financial information of another person, living or dead,
with the intent to commit, or to aid or abet, any crime.
(2) Violation of this section when the accused or an accomplice violates
subsection (1) of this section and obtains credit, money, goods, services, or
anything else of value in excess of one thousand five hundred dollars in value,
or when the accused knowingly targets a senior or vulnerable individual in
carrying out a violation of subsection (l) of this section, shall constitute
identity theft in the first degree. Identity theft in the first degree is a class B
felony punishable according to chapter 9A.20 RCW.
(3) A person is guilty of identity theft in the second degree when he or
she violates subsection (1) of this section under circumstances not amounting
to identity theft in the first degree. Identity theft in the second degree is a
class C felony punishable according to chapter 9A.20 RCW.
(4) Each crime prosecuted under this section shall be punished
separately under chapter 9.94A RCW, unless it is the 9ame criminal conduct
as any other crime, under RCW 9.94A589.
(5) Whenever any series of transactions involving a single person's
means of identification or financial information which constitute identity
theft would, when considered separately, constitute identity theft in the
second degree because of value, and the series of transactions are a part of a
common scheme or plan, then the transactions may be aggregated in one
count and the sum of the value of all of the transactions shall be the value
considered in determining the degree of identity theft involved.
(6) Every person who, in the commission of identity theft, shall
commit any other crime may be punished therefor as well as for the identity
theft, and may be prosecuted for each crime separately.
(7) A person who violates this section is liable for civil damages of one
thousand dollars or actual damages, whichever is greater, including costs to
repair the victim's credit record, and reasonable attorneys' fees as determined
by the court.
(8) In a proceeding under this section, the crime will be considered to
have been committed in any locality where the person whose means of
identification or financial information was appropriated resides, or in which
any part of the offense took place, regardless of whether the defendant was
ever actually in that locality,

USA vVerkler 21-30098

Lxxxxviii

(9) The provisions of this section do not apply to any person who
obtains another person’s driver's license or other form of identification for the
sole purpose of misrepresenting his or her age.
(10) In a proceeding under this section in which a person's means of
identification or financial information was used without that person's
authorization, and when there has been a conviction, the sentencing court
may issue such orders as are necessary to correct a public record that
contains false information resulting from a violation of this section.

RCW 9.38.020 states,
False representation concerning title.
Every person who shall maliciously or fraudulently execute or file for
record any instrument, or put forward any claim, by which the right or title of
another to any real or personal property is, or purports to be transferred,
encumbered or clouded, shall be guilty of a gross misdemeanor.

RCW 50.36.010 states,
Violations generally.
(1) It shall be unlawful for any person to knowingly give any false
information or withhold any material information required under the
provisions of this title.
(2) Any person who violates any of the provisions of this title which
violation is declared to be unlawful, and for which no contrary provision is
made, is guilty of a misdemeanor and shall be punished by a fine of not less
than twenty dollars nor more than two hundred and fifty dollars or by
imprisonment in the county jail for not more than ninety days.
(3) Any person who in connection with any compromise or offer of
compromise willfully conceals from any officer or employee of the state any
property belonging to an employing unit which is liable for contributions,
interest, or penalties, or receives, destroys, mutilates, or falsifies any book,
document, or record, or makes under oath any false statement relating to the
financial condition of the employing unit which is liable for contributions, is
guilty of a gross misdemeanor and shall upon conviction thereof be fined not
more than five thousand dollars or be imprisoned for up to three hundred
sixty-four days, or both.
(4) The penalty prescribed in this section shall not be deemed
exclusive, but any act which shall constitute a crime under any law of this

USA v Verkler 21-30098

iC

state may be the basis of prosecution under such law notwithstanding that it
may also be the basis for prosecution under this section.

RCW 50.04.310 states.
Unemployed individual—Individual not unemployed—Unemployed corporate
officer—Corporate officer not unemployed.
(1) An individual:
(a) Is ‘’unemployed" in any week during which the individual performs
no services and with respect to which no remuneration is payable to the
individual, or in any week of less than full time work, if the remuneration
payable to the individual with respect to such week is less than one and one*
third times the individual's weekly benefit amount plus five dollars. The
commissioner shall prescribe regulations applicable to unemployed
individuals making such distinctions in the procedures as to such types of
unemployment as the commissioner deems necessary.
(b) Is not "unemployed" in any week which falls totally within a period
during which the individual, pursuant to a collective bargaining agreement
or individual employment contract, is employed full time in accordance with a
definition of full time contained in the agreement or contract, and for which
compensation for full time work is payable. This subsection may not be
applied retroactively to an individual who had no guarantee of work at the
start of such period and subsequently is provided additional work by the
employer.
(2) (a) An officer of a corporation who owns ten percent or more of the
outstanding stock of the corporation, or a corporate officer who is a family
member of an officer who own9 ten percent or more of the outstanding stock
of the corporation, whose claim for benefits is based on any wages with that
corporation:
(i) Is not "unemployed" in any week during the individual's term of
office or ownership in the corporation, even if wages are not being paid,
unless the corporate officer's covered base year wages with that corporation
are less than twenty-five percent of his or her total covered base year wages.
(ii) Is "unemployed" in any week upon dissolution of the corporation or
if the offioer permanently resigns or is permanently removed from their
appointment and responsibilities with that corporation in accordance with its
articles of incorporation or bylaws or if tho corporate officer’s covered base
year wages with that corporation are less than twenty-five percent of his or
her total covered base year wages.

USA v Verkler 21-30098

C

(b) As used in this subsection (2), "family member" means persons who
are members of a family by blood or marriage as parents, stepparents,
grandparents, spouses, children, brothers, sisters, stepchildren, adopted
children, or grandchildren.

EXCESSIVE BINES PROHIBITED
The Eighth Amendment states, “AMENDMENT Vffi
Excessive bail shall not be required, nor excessive fines imposed, nor cruel and unusual
punishments inflicted.”

THE RIGHT TO APPEAL and COLLATERAL ATTACK and WIN
The Preamble to the US Constitution states,
We the People of the United States, in Order to form a more perfect Union,
establish Justice, insure domestic Tranquility, provide for the common
defence, promote the general Welfare, and secure the Blessings of liberty to
ourselves and our Posterity, do ordain and establish this Constitution for the
United States of America.

Article 1 Section 8 which states, “Section 8 ...To constitute Tribunals inferior to the
supreme Court;,,, grants the right to appeal

Article I Section 9 states,"... The Privilege of the Writ of Habeas Corpus shall not be
suspended...”

Article 3 Sections 1 with Section 2 states, Section 1
The judicial Power of the United States, shall be vested in one supreme
Court, and in such inferior Courts as the Congress may from time to time
ordain and establish. The Judges, both of the supreme and inferior Courts,
shall hold their Offices during good Behaviour, and shall, at stated Times,
USA vVerkler 21-30098

Ci

receive for their Services, a Compensation, which shall not be diminished
during their Continuance in Office.
Section 2
The Judicial Power shall extend to all Cases, in Law and Equity, arising
under this Constitution, the Laws of the United States,...
The Trial of all Crimes, shall be by Jury; and such Trial shall be held in the
State where the said Crimes shall have been committed;.

The Fifth Amendment states, No person shall be held to answer for a
capital, or otherwise infamous crime, unless on a presentment or indictment
of a Grand Jury,... nor be deprived of life, liberty, or property, without due
process of law; nor shall private property be taken for public use, without just
compensation.

18 USC 3006A (above) states,
(a)(2)(B) is seeking relief under section 2241, 2254, or 2255 of title 28.
(b) Appointment of Counsel.—
... the United States magistrate judge or the court shall advise the person
that he has the right to be represented by counsel and that counsel will be
appointed to represent him if he is financially unable to obtain counsel...
shall appoint counsel to represent him. Such appointment may be made
retroactive to include any representation furnished pursuant to the plan
prior to appointment
(c) Duration and Substitution of Appointments.—
A person for whom counsel is appointed shall be represented at every stage of
the proceedings from his initial appearance before the United States
magistrate judge or the court through appeal, including ancillary matters
appropriate to the proceedings. If at any time after the appointment of
counsel the United States magistrate judge or the court finds that the person
is financially able to obtain counsel or to make partial payment for the
representation, it may terminate the appointment of counsel or authorize
payment as provided in subsection CD, as the interests of justice may dictate.
If at any stage of the proceedings, including an appeal, the United States
magistrate judge or the court finds that the person is financially unable to
pay counsel whom he had retained, it may appoint counsel as provided in
subsection (b) and authorize payment as provided in subsection (d), as the
interests ofjustice may dictate. The United States magistrate judge or the
court may, in the interests ofjustice, substitute one appointed counsel for
another at any stage of the proceedings....
USA Werkler 21-30098

Cii

28 U.S. Code § 1292 states, Interlocutory decisions
(a) Except as provided in subsections (c) and (d) of this section, the courts of
appeals shall have jurisdiction of appeals from:
(1) Interlocutory orders of the district courts of the United States,...

28 U.S. Code § 2243 states, Issuance of writ: return; hearing; decision
A court, justice or judge entertaining an application for a writ of habeas
corpus shall forthwith award the writ or issue an order directing the
respondent to show cause why the writ should not be granted, unless it
appears from the application that the applicant or person detained is not
entitled thereto.
The writ, or order to show cause shall be directed to the person having
custody of the person detained. It shall be returned within three days unless
for good cause additional time, not exceeding twenty days, is allowed.
The person to whom the writ or order is directed shall make a return
certifying the true cause of the detention.
When the writ or order is returned a day shall be set for hearing, not more
than five days after the return unless for good cause additional time is
allowed.
Unless the application for the writ and the return present only issues of
law the person to whom the writ is directed shall be required to produce at
the hearing the body of the person detained.
The applicant or the person detained may, under oath, deny any of the
facts set forth in the return or allege any other material facts.

28 U.S. Code § 2255 * Federal custody; remedies on motion attacking
sentence
(a) A prisoner in custody under sentence of a court established by Act
of Congress claiming the right to be released upon the ground that the
sentence was imposed in violation of the Constitution or laws of the United
States, or that the court was without jurisdiction to impose such sentence, or
that the sentence was in excess of the maximum authorized by law, or is
otherwise subject to collateral attack, may move the court which imposed the
sentence to vacate, set aside or correct the sentence.
(b) Unless tbe motion and tbe files and records of the case conclusively show
that the prisoner is entitled to no relief, the court shall cause notice thereof to
be served upon the United States attorney, grant a prompt hearing thereon,
determine the issues and make findings of fact and conclusions of law with
USA vVerkler 21-30098

Ciii

respect thereto. If the court finds that the judgment was rendered without
jurisdiction, or that the sentence imposed was not authorized by law or
otherwise open to collateral attack, or that there has been such a denial or
infringement of the constitutional rights of the prisoner as to render the
judgment vulnerable to collateral attack, the court shall vacate and set the
judgment aside and shall discharge the prisoner or resentence him or grant a
new trial or correct the sentence as may appear appropriate.
(c) A court may entertain and determine such motion without requiring the
production of the prisoner at the hearing.
(d) An appeal may be taken to the court of appeals from the order entered on
the motion as from a final judgment on application for a writ of habeas
corpus.
(e) An application for a writ of habeas corpus in behalf of a prisoner who is
authorized to apply for relief by motion pursuant to this section, shall not be
entertained if it appears that the applicant has failed to apply for relief, by
motion, to the court which sentenced him, or that such court has denied him
relief, unless it also appears that the remedy by motion is inadequate or
ineffective to test the legality of his detention.
CO A 1-year period of limitation shall apply to a motion under this section.
The limitation period shall run from the latest of—
(1) the date on which the judgment of conviction becomes final;
(2) the date on which the impediment to making a motion created by
governmental action in violation of the Constitution or laws of the United
States is removed, if the movant was prevented from making a motion by
such governmental action)
(3) the date on which the right asserted was initially recognized by the
Supreme Court, if that right has been newly recognized by the Supreme
Court and made retroactively applicable to cases on collateral review! or
(4) the date on which the facts supporting the claim or claims presented could
have been discovered through the exercise of due diligence.
(g) Except as provided in section 408 of the Controlled Substances Act in all
proceedings brought under this section, and any subsequent proceedings on
review, the court may appoint counsel, except as provided by a rule
promulgated by the Supreme Court pursuant to statutory authority.
Appointment of counsel under this section shall he governed by section 3QQ6A
of title 18.
(h) A second or successive motion must be certified as provided in section
2244 by a panel of the appropriate court of appeals to contain—

USA vVerkler 21*30098

Civ

(1) newly discovered evidence that, if proven and viewed in light of the
evidence as a whole, would be sufficient to establish by clear and convincing
evidence that no reasonable factfinder would have found the movant guilty of
the offense; or
(2) a new rule of constitutional law, made retroactive to cases on collateral
review by the Supreme Court, that was previously unavailable.

RULE 11. CERTIFICATE OF APPEALABILITY; TIME TO APPEAL
(a) Certificate of Appealability. The district court must issue or deny a certificate
of appealability when it enters a final order adverse to the applicant. Before
entering the final order, the court may direct the parties to submit
arguments on whether a certificate should issue. If the court issues a
certificate, the court must state the specific issue or issues that satisfy the showing
required by 28 U.S.C. Sec. 2253(c)(2). If the court denies a certificate, a party
may not appeal the denial but may seek a certificate from the court of appeals
under Federal Rule of Appellate Procedure 22. A motion to reconsider a denial
docs not extend the time to appeal, (b) Time to Appeal. Federal Rule of Appellate
Procedure 4(a) governs the time to appeal an order entered under these rules. A
timely notice of appeal must be filed even if tlic district court issues a certificate
of appealability. These rules do not extend the time to appeal the original
judgment of conviction.

Federal Rule of Appellate Procedure 3 states, “Rule 3. Appeal as of
Right—How Taken
(a) Filing the Notice of appeal.
(1) An appeal permitted by law as of right from a district court to a court of
appeals may be taken...”
Fed. Rule of Crim. Proc. 44(a) (above) states, “A defendant who is unable to obtain
counsel is entitled to have counsel appointed to represent the defendant at every stage of
the proceeding from initial appearance through appeal,”
Rule 55 says, Default; Default Judgment
(a) ENTERING A Default. When a party against whom a judgment for
affirmative relief is sought has failed to plead or otherwise defend, and that
failure is shown by affidavit or otherwise, the clerk must enter the party's
default.
USA v Verkler 21-30098

Cv

(b) Entering a Default Judgment.
(1) By the Clerk. If the plaintiffs claim is for a sum certain or a sum that
can be made certain by computation, the clerk—on the plaintiffs request,
with an affidavit showing the amount due—must enter judgment for that
amount and costs against a defendant who has been defaulted for not
appearing and who is neither a minor nor an incompetent person.
(2) By the Court. In all other cases, the party must apply to the court for a
default judgment. A default judgment may be entered against a minor or
incompetent person only if represented by a general guardian, conservator, or
other like fiduciary who has appeared. If the party against whom a default
judgment is sought has appeared personally or by a representative, that
party or its representative must be served with written notice of the
application at least 7 days before the hearing. The court may conduct
hearings or make referrals—preserving any federal statutory right to a jury
trial—when, to enter or effectuate judgment, it needs to*
(A) conduct an accounting!
(B) determine the amount of damages!
(C) establish the truth of any allegation by evidence! or
(D) investigate any other matter.
(c) Setting Aside a Default or a Default Judgment. The court may set
aside an entry of default for good cause, and it may set aside a final default
judgment under Rule 60(b).
(d) Judgment Against the United States, a default judgment may be
entered against the United States, its officers, or its agencies only if the
claimant establishes a claim or right to relief by evidence that satisfies the
court.

Rule 66. Says, Summary Judgment
(a) Motion for Summary Judgment or Partial Summary Judgment. A
party may move for summary judgment, identifying each claim or defense —
or the part of each claim or defense — on which summary judgment is
sought. The court shall grant summary judgment if the movant shows that
there is no genuine dispute as to any material fact and the movant is entitled
to judgment as a matter of law. The court should state on the record the
reasons for granting or denying the motion.

USA v Verkler 21-30098

Cvi

RIGHT To An IMPARTIAL JUDGE

Article III Section 2 states,
The judicial Power shall extend to all Cases, in Law and Equity, arising
under this Constitution, the Laws of the United States, and Treaties made, or
which shall be made, under their Authorityr-to all Cases affecting
Ambassadors, other public Ministers and Consul$;-*to all Cases of admiralty
and maritime Jurisdiction»~to Controversies to which the United States shall
be a Partyr-to Controversies between two or more StatesJ-between a State
and Citizens of another Stater-between Citizens of different States;-‘between
Citizens of the same State claiming Lands under Grants of different States,
and between a State, or the Citizens thereof, and foreign States, Citizens or
Subjects.
In all Cases affecting Ambassadors, other public Ministers and Consuls, and
those in which a State shall be Party, the supreme Court shall have original
Jurisdiction. In all the other Cases before mentioned, the supreme Court
shall have appellate Jurisdiction, both as to Law and Fact, with such
Exceptions, and under such Regulations as the Congress shall make.
The Trial of all Crimes, except in Cases of Impeachment; shall be by Jury;
and such Trial shall be held in the State where the said Crimes shall have
been committed; but when not committed within any State, the Trial shall be
at such Place or Places as the Congress may by Law have directed.

The Fourth Amendment states, Fourth Amendment
The right of the people to be secure in their persons, houses, papers, and
effects, against unreasonable searches and seizures, shall not be violated, and
no Warrants shall issue, but upon probable cause, supported by Oath or
affirmation, and particularly describing the place to be searched, and the
persons or things to be seized.

18 U.S. Code § I346.De£inition of “scheme or artifice to defraud”
For the purposes of this chapter, the term “scheme or artifice to defraud” includes a scheme
or artifice to deprive another of the intangible right of honest services.

USA v Verkler 21-30098

Cvii

28 USC sec 465(a)(b)(l)(5)(ii)(iii)(iv)(c)(e) states, “
28 U.S. Code § 455 ~ Disqualification of justice, judge, or magistrate judge
(a) Any justice, judge, or magistrate judge of the United States shall
disqualify himself in any proceeding in which .his impartiality might
reasonably be questioned.
(b) He shall also disqualify himselfin the following circumstances:
(1) Where he has a personal bias or prejudice concerning a party, or personal
knowledge of disputed evidentiary facts concerning the proceeding;...
(4) He knows that he, individually... has a financial interest in the subject
matter in controversy...
(6) He...
(ii) Is acting as a lawyer in the proceeding;
(iii) Is known by the judge to have an interest that could be substantially
affected by the outcome of the proceeding;
(iv) Is to the judge’s knowledge likely to be a material witness in the
proceeding.
(c) A judge should inform himself about his personal and fiduciary financial
interests,...

Federal Rule of Criminal Procedure 5 (above) states,
(c) PLACE OF INITIAL APPEARANCE; TRANSFER TO ANOTHER DISTRICT.

(3) Procedures in a District Other Than Where the Offense Was Allegedly
Committed. If the initial appearance occurs in a district other than where the
offense was allegedly committed, the following procedures apply:
(C) the magistrate judge must conduct a preliminary hearing if required
by Rule 5.1;

Fed. Rule of Crim. Proc. 11 (above) states, “Rule 11. Pleas...
(b) CONSIDERING AND ACCEPTING A GUILTY OR NOLO CONTENDERE PLEA.

(1)(K)(2) Ensuring That a Plea Is Voluntary. Before accepting a plea of
guilty or nolo contendere, the court must address the defendant personally in

USA vVerkler 21-30098

Cviii

open court and determine that the plea is voluntary and did not result from
force, threats, or promises (other than promises in a plea agreement).
(3) Determining the Factual Basis for a Plea. Before entering
judgment on a guilty plea, the court must determine that there is a factual
basis for the plea.

HEARING REQUIRED

Article 3 Section 2 (above) states, “The Trial of all Crimes... shall be by Jury...”
The Fifth Amendment (above) states, “No person shall be held to answer for a ...
crime, nor be deprived of... property, without due procegs of law,”
18 U.S. Code § 3006A (d)(4)(B)(ii)(IV) (above) states, “adequate representation of
defendants for any person financially unable to obtain adequate representation for hearings
is a right.
Fed. R. Crim. P. 6 (a)(1)(A) (above) states, “the United States must take the
defendant without unnecessary delay before a magistrate judge...” (d)(1)(D) states,
“Procedure in a Felony Case. Advice. If the defendant is charged with a felony, the judge
must inform the defendant of the following* any right to a preliminary hearing...”
Fed Rule of Crim Proc 11 (b) (above) states, CONSIDERING AND
Accepting a Guilty or Nolo Contendere Plea. (1) Advising and
Questioning the Defendant Before the court accepts a plea of guilty or nolo
contendere, the defendant may be placed under oath, and the court must
address the defendant personally in open court. During this address, the
court must inform the defendant of, and determine that the defendant
understands, the following'
Fed, Rule of Crim. Proc. 44(a) (above) states, “A defendant who is unable to obtain
counsel is entitled to have counsel appointed to represent the defendant at every stage of
the proceeding from initial appearance through appeal.”
USA vVerkler 21-30098

Cix

BREACH OF CONTRACT

28 USC 3308 states, "Except as provided in this subchapter, the principles of law
and equity, including the law merchant and the law relating to principles and agent,
estoppel; laches, fraud, misrepresentation, duress, coercion, mistake, insolvency, or other
validating or invalidating clause shall apply to actions and proceedings under this
subchapter."
The Uniform Commercial Code states, “§ 2-601. Buyer’s Rights on Improper
Delivery.
Subject to the provisions of this Article on breach in installment contracts
(Section 2-612) and unless otherwise agreed under the sections on contractual
limitations of remedy (Sections 2-718 and 2-719). if the goods or the tender of
delivery fail in any respect to conform to the contract the buyer may
♦

(a) reject the whole;...”

IT IS AN ABUSE OF DISCRETION TO APPLY THE WRONG LEGAL STANDARD
Federal Rules of Criminal Procedure 1 states,
Rule I. Scope; Definitions
(a) Scope.
(1) In General. These rules govern the procedure in all criminal
proceedings in the United States district courts, the United States courts of
appeals, and the Supreme Court of the United States....
(b) Definitions, The following definitions apply to these rules:...
(2) “Court” means a federal judge performing functions authorized by
law....

USA vVerkier 21-30098

Cx

Federal Rule of Criminal Procedure 2 states, “Rule 2. Interpretation
These rules are to be interpreted to provide for the just determination of every criminal
proceeding, to secure simplicity in procedure and fairness in administration, and to
eliminate unjustifiable expense and delay.”
16 U.S. Code § 1692h Multiple debts says.
If any consumer owes multiple debts and makes any single payment to
any debt collector with respect to such debts, such debt collector may not
apply such payment to anv debt which is disputed by the consumer and,
where applicable, shall apply such payment in accordance with
the consumer's directions.

CRUEL AND UNUSUAL PUNISHMENT PROHIBITED
The Eighth Amendment states, “Amendment VIII Excessive bail shall not be
required, nor excessive fines imposed, nor cruel and unusual punishments inflicted.”
16 U.S. Code § 1692d, says * Harassment or abuse
A debt collector may not engage in any conduct the natural consequence of which is to
harass, oppress, or abuse any person in connection with the collection of a debt. Without
limiting the general application of the foregoing, the following conduct is a violation of this
section:
(1) The use or threat of use of violence or other criminal means to harm the physical person,
reputation, or property of any person.
(2) The use of obscene or profane language or language the natural consequence of which is
to abuse the hearer or reader.
(3) The publication of a list of consumers who allegedly refuse to nav debts, except to
a consumer reporting agency or to persons meeting the requirements of
section 168la(0 or 1681b(3) Til of this title.
(4) The advertisement for sale of any debt to coerce payment of the debt.
(5) Causing a telephone to ring or engaging any person in telephone conversation
repeatedly or continuously with intent to annoy, abuse, or harass any person at the called
number.
USA vVerkler 21-30098

Cxi

(6) Except as provided in section 1692b of this title, the placement of telephone calls
without meaningful disclosure of the caller’s identity.

SPEEDY TRIAL

AMENDMENT VI states
In all criminal prosecutions, the accused shall enjoy the right to a speedy and
public trial, by an impartial jury of the State and district wherein the crime
shall have been committed, which district shall have been previously
ascertained by law, and to be informed of the nature and cause of the
accusation; to be confronted with the witnesses against him; to have
compulsory process for obtaining witnesses in his favor, and to have the
Assistance of Counsel for his defence.

18 USC 3161 states:
(a) In any case involving a defendant charged with an offense, the
appropriate judicial officer, at the earliest practicable time, shall, after
consultation with the counsel for the defendant and the attorney for the
Government, set the case for trial on a day certain, or list it for trial on a
weekly or other short-term trial calendar at a place within the judicial
district, so as to assure a speedy trial.
(b) Any information or indictment charging an individual with the
commission of an offense shall be filed within thirty days from the date on
which such individual was arrested or served with a summons in connection
with such charges.

18 USC 3162 states:
(b) In any case in which counsel for the defendant or the attorney for the
Government (1) knowingly allows the case to be set for trial without disclosing the
fact that a necessary witness would be unavailable for trial;... or (4) otherwise
willfully fails to proceed to trial without justification consistent with section 3161 of
this chapter, the court may punish any such counsel or attorney, as follows:
(C) by imposing on any attorney for the Government a fine of not to exceed $250;
(D) by denying any such counsel or attorney for the Government the right to practice
before the court considering such case for a period of not to exceed ninety days; or
USA vVerkler 21-30098

Cxii

(E) by filing a report with an appropriate disciplinary committee.
The authority to punish provided for by this subsection shall be in addition to any
other authority or power available to such court.

RIGHT TO THE PROTECTION OF THE CONSTITUTION AND THE LAWS
15 U.S. Code § 1692e, says False or misleading representations
A debt collector may not use any false, deceptive, or misleading
representation or means in connection with the collection of any debt.
Without limiting the general application of the foregoing, the following
conduct is a violation of this section:
(1) The false representation or implication that the debt collector is vouched
for, bonded by, or affiliated with the United States or any State, including the
use of any badge, uniform, or facsimile thereof.
(2) The false representation of—
(A) the character, amount, or legal status of any debt; or
(B) any services rendered or compensation which may be lawfully received by
any debt collector for the collection of a debt.
(3) The false representation or implication that any individual is an attorney
or that any communication is from an attorney.
(4) The representation or implication that nonpayment of any debt will result
in the arrest or imprisonment of any person or the seizure, garnishment,
attachment, or sale of any property or wages of any person unless such action
is lawful and the debt collector or creditor intends to take such action.
(5) The threat to take any action that cannot legally be taken or that is not
intended to be taken.
(6) The false representation or implication that a sale, referral, or other
transfer of any interest in a debt shall cause the consumer to—
(A) lose any claim or defense to payment of the debt; or
(B) become subject to any practice prohibited by this subchapter.
(7) The false representation or implication that the consumer committed any
crime or other conduct in order to disgrace the consumer.

USA v Verkler 21-30098

Cxiii

i

(8) Communicating or threatening to communicate to any person credit
information which is known or which should be known to be false, including
the failure to communicate that a disputed debt is disputed.
(9) The use or distribution of any written communication which simulates or
is falsely represented to be a document authorized, issued, or approved by
any court, official, or agency of the United States or any State, or which
creates a false impression as to its source, authorization, or approval.
(10) The use of any false representation or deceptive means to collect or
attempt to collect any debt or to obtain information concerning a consumer.
(11) The failure to disclose in the initial written communication with
the consumer and, in addition, if the initial communication with
the consumer is oral, in that initial oral communication, that
the debt collector is attempting to collect a debt and that any information
obtained will be used for that purpose, and the failure to disclose in
subsequent communications that the communication is from a debt collector,
except that this paragraph shall not apply to a formal pleading made in
connection with a legal action.
(12) The false representation or implication that accounts have been turned
over to innocent purchasers for value.
(13) The false representation or implication that documents are legal process.
(14) The use of any business, company, or organization name other than the
true name of the debt collector’s business, company, or organization.
(15) The false representation or implication that documents are not legal
process forms or do not require action by the consumer.
(16) The false representation or implication that a debt collector operates or
is employed by a consumer reporting agency as defined by section1681a(f) of
this title.

15 U.S. Code § 1692g says, ■ Validation of debts
(a) NOTICE of debt; CONTENTS Within five days after the
initial communication with a consumer in connection with the collection of
any debt, a debt collector shall, unless the following information is contained
in the initial communication or the consumer has paid the debt, send
the consumer a written notice containing—
(1) the amount of the debt;
(2) the name of the creditor to whom the debt is owed;

USA v Verkler 21-30098

Cxiv

(3) a statement that unless the consumer, within thirty days after receipt of
the notice, disputes the validity of the debt, or any portion thereof,
the debt will be assumed to be valid by the debt collector;
(4) a statement that if the consumer notifies the debt collector in writing
within the thirty-day period that the debt, or any portion thereof, is disputed,
the debt collector will obtain verification of the debt or a copy of a judgment
against the consumer and a copy of such verification or judgment will be
mailed to the consumer by the debt collector; and
(5) a statement that, upon the consumer's written request within the thirtyday period, the debt collector will provide the consumer with the name and
address of the original creditor, if different from the current creditor.
(b) Disputed debts
If the consumer notifies the debt collector in writing within the thirty-day
period described in subsection (a) that the debt, or any portion thereof is
disputed, or that the consumer requests the name and address of the
original creditor, the debt collector shall cease collection of the debt, or any
disputed portion thereof, until the debt collector obtains verification of
the debt or a copy of a judgment, or the name and address of the
original creditor, and a copy of such verification or judgment, or name and
address of the original creditor, is mailed to the consumer bv
the debt collector. Collection activities and communications that do not
otherwise violate this subchapter may continue during the 30-day period
referred to in subsection (a) unless the consumer has notified
the debt collector in writing that the debt, or any portion of the debt, is
disputed or that the consumer requests the name and address of the
original creditor. Any collection activities and communication during the 30day period may not overshadow or be inconsistent with the disclosure of
the consumer’s right to dispute the debt or request the name and address of
the original creditor.

(c) Admission of liability
The failure of a consumer to dispute the validity of a debt under this section
may not be construed by any court as an admission of liability by
the consumer.
(d) Legal pleadings
A communication in the form of a formal pleading in a civil action shall not
be treated as an initial communication for purposes of subsection (a).
(e) Notice provisions
The sending or delivery of any form or notice which does not relate to the
collection of a debt and is expressly required by title 26, title V of GrammLeach-Blilev Act fl5 U.S.C. 6801 et seq.], or any provision of Federal
or State law relating to notice of data security breach or privacy, or any
USA v Verkler 21-30098

Cxv

regulation prescribed under any such provision of law, shall not be treated as
an initial communication in connection with debt collection for purposes of
this section.
18 U.S. Code § 4 - Misprision of felony states:
Whoever, having knowledge of the actual commission of a felony cognizable
by a court of the United States, conceals and does not as soon as possible make
known the same to some judge or other person in civil or military authority
under the United States, shall be fined under this title or imprisoned not more
than three years, or both.

18 U.S. Code § 643 ■ Accounting generally for public money
Whoever, being an officer, employee or agent of the United States or of any
department or agency thereof, having received public money which he is not
authorized to retain as salary, pay, or emolument, fails to render his accounts
for the same as provided by law is guilty of embezzlement, and shall be fined
under this title or in a sum equal to the amount of the money embezzled,
whichever is greater, or imprisoned not more than ten years,

18 U.S. Code § 645 • Court officers generally
Whoever, being a United States marshal, clerk, receiver, referee, trustee,
or other officer of a United States court, or any deputy, assistant, or employee
of any such officer, retains or converts to his own use or to the use of another
or after demand by the party entitled thereto, unlawfully retains any money
coming into his hands by virtue of his official relation, position or
employment, is guilty of embezzlement and shall, where the offense is not
otherwise punishable by enactment of Congress, be fined under this title or
not more than double the value of the money so embezzled, whichever is
greater, or imprisoned not more than ten years, or both; but if the amount
embezzled does not exceed $1,000, he shall be fined under this title or
imprisoned not more than one year, or both.
It shall not be a defense that the accused person had any interest in such
moneys or fund.

18 U.S. Code § 646 * Court officers depositing registry moneys
Whoever, being a clerk or other officer of a court of the United States, fails
to deposit promptly any money belonging in the registry of the court, or paid
into court or received by the officers thereof with the Treasurer or a
designated depositary of the United States, in the name and to the credit of
USA v Verkler 21-30098

Cxvi

such court, or retains or converts to his own use or to the use of another any
such money, is guilty of embezzlement and shall be fined under this title or
not more than the amount embezzled, whichever is greater, or imprisoned not
more than ten years, or both; but if the amount embezzled does not exceed
$1,000, he shall be fined under this title or imprisoned not more than one
year, or both.
This section shall not prevent the delivery of any such money upon
security, according to agreement of parties, under the direction of the court.

18 U.S. Code § 648 - Custodians, generally, misusing public funds
Whoever, being an officer or other person charged by any Act
of Congress with the safe-keeping of the public moneys, loans, uses, or
converts to his own use, or deposits in any bank, including any branch or
agency of a foreign bank (as such terms are defined in paragraphs (l) and (3)
of section 1(b) of the International Banking Act of 1978). or exchanges for
other funds, except as specially allowed by law, any portion of the public
moneys intrusted to him for safe-keeping, is guilty of embezzlement of the
money so loaned, used, converted, deposited, or exchanged, and shall be fined
under this title or in a sum equal to the amount of money so embezzled,
whichever is greater, or imprisoned not more than ten years, or both; but if
the amount embezzled does not exceed $1,000, he shall be fined under this
title or imprisoned not more than one year, or both.

18 U.S. Code § 3142 * Release or detention of a defendant pending trial
(a) IN GENERAL.—Upon the appearance before a judicial officer of a person
charged with an offense, the judicial officer shall issue an order that, pending
trial, the person be—
(1) released on personal recognizance or upon execution of an unsecured
appearance bond, under subsection (b) of this section;
(2) released on a condition or combination of conditions under subsection (c)
of tbis section;
(3) temporarily detained to permit revocation of conditional release,
deportation, or exclusion under subsection (d) of this section; or
(4) detained under subsection (e) of this section.
(b) Release on Personal Recognizance or Unsecured Appearance
Bond.—
The judicial officer shall order the pretrial release of the person on personal
recognizance, or upon execution of an unsecured appearance bond in an
USA vVerkler 21-30098

Cxvii

amount specified by the court, subject to the condition that the person not
commit a Federal. State, or local crime during the period of release and
subject to the condition that the person cooperate in the collection of a DNA
sample from the person if the collection of such a sample is authorized
pursuant to section 3 of the DNA Analysis Backlog Elimination Act of
2000 (42 U.S.C. 14135a),[13 unless the judicial officer determines that such
release will not reasonably assure the appearance of the person as required
or will endanger the safety of any other person or the community.
(c) Release on Conditions.(1) If the judicial officer determines that the release described in subsection
(b) of this section will not reasonably assure the appearance of the person as
required or will endanger the safety of any other person or the community,
such judicial officer shall order the pretrial release of the person—
(A) subject to the condition that the person not commit a Federal, State, or
local crime during the period of release and subject to the condition that the
person cooperate in the collection of a DNA sample from the person if the
collection of such a sample is authorized pursuant to section 3 of the DNA
Analysis Backlog Elimination Act of 2000 (42 U.S.C. 14135a);1 and
(B) subject to the least restrictive further condition, or combination of
conditions, that such judicial officer determines will reasonably assure the
appearance of the person as required and the safety of any other person and
the community, which may include the condition that the person—
CO remain in the custody of a designated person, who agrees to assume
supervision and to report any violation of a release condition to the court, if
the designated person is able reasonably to assure the judicial officer that the
person will appear as required and will not pose a danger to the safety of any
other person or the community;
(ii) maintain employment, or, if unemployed, actively seek employment;
(iii) maintain or commence an educational program;
(iv) abide by specified restrictions on personal associations, place of abode, or
travel;
(v) avoid all contact with an alleged victim of the crime and with a potential
witness who may testify concerning the offense;
(vi) report on a regular basis to a designated law enforcement agency, pretrial
services agency, or other agency;
(vii) comply with a specified curfew;
(viii) refrain from possessing a firearm, destructive device, or other dangerous
weapon;
USAvVerkler 21-30098

Cxviii

(Lx) refrain from excessive use of alcohol, or any use of a narcotic drug or
other controlled substance, as defined in section 102 of the Controlled
Substances Act (21 U.S.C. 802). without a prescription by a licensed medical
practitioner;
(x) undergo available medical, psychological, or psychiatric treatment,
including treatment for drug or alcohol dependency, and remain in a specified
institution if required for that purpose!
(xi) execute an agreement to forfeit upon failing to appear as required,
property of a sufficient unencumbered value, including money, as is
reasonably necessary to assure the appearance of the person as required, and
shall provide the court with proof of ownership and the value of the property
along with information regarding existing encumbrances as the judicial office
may require;
Grii) execute a bail bond with solvent sureties; who will execute an agreement
to forfeit in such amount as is reasonably necessary to assure appearance of
the person as required and shall provide the court with information
regarding the value of the assets and liabilities of the surety if other than an
approved surety and the nature and extent of encumbrances against the
surety's property; such surety shall have a net worth which shall have
sufficient unencumbered value to pay the amount of the bail bond!
(xiiO return to custody for specified hours following release for employment,
schooling, or other limited purposes; and
(xiv) satisfy any other condition that is reasonably necessary to assure the
appearance of the person as required and to assure the safety of any other
person and the community.
In any case that involves a minor victim under
section 1201, 1591. 2241. 2242. 2244(a)(1). 2245. 2251. 2251A. 2252(a)(1). 225
2(a)(2). 2252(a)(3). 2252A(a)(l). 2252A(a)(2). 2252A(a)(3). 2252A(a)(4). 2260. %
421. 2422. 2423. or 2425 of this title, or a failure to
register offense under section 2250 of this title, any release order shall
contain, at a minimum, a condition of electronic monitoring and each of the
conditions specified at subparagraphs (iv), (v), (vi), (vii), and (viii).
(2) The judicial officer may not impose a financial condition that results in
the pretrial detention of the person.
(3) The judicial officer may at any time amend the order to impose additional
or different conditions of release.

USA vVerkler 21*30098

Cxix

18 U.S. Code § 3164 ■ Persona detained or designated as being of high risk
(a) The trial or other disposition of cases involving—
(1) a detained person who is being held in detention solely because he is
awaiting trial, and
(2) a released person who is awaiting trial and has been designated by the
attorney for the Government as being of high risk,
shall be accorded priority.
(b) The trial of any person described in subsection (a)(1) or (a)(2) of this
section shall commence not later than ninety days following the beginning of
such continuous detention or designation of high risk by the attorney for the
Government. The periods of delay enumerated in section 3161(h) are
excluded in computing the time limitation specified in this section.
(c) Failure to commence trial of a detainee as specified in subsection (b),
through no fault of the accused or his counsel, or failure to commence trial of
a designated releasee as specified in subsection (b), through no fault of the
attorney for the Government, shall result in the automatic review by the
court of the conditions of release. No detainee, as defined in subsection (a),
shall be held in custody pending trial after the expiration of such ninety-day
period required for the commencement of his trial. A designated releasee, as
defined in subsection (a), who is found by the court to have intentionally
delayed the trial of his case shall be subject to an order of the court modifying
his nonfinancial conditions of release under this title to insure that he shall
appear at trial as required.
18 U.S. Code § 3585 - Calculation of a term of imprisonment
(a) COMMENCEMENT OF Sentence.—A sentence to a term of imprisonment
commences on the date the defendant is received in custody awaiting
transportation to, or arrives voluntarily to commence service of sentence at,
the official detention facility at which the sentence is to be served.
(b) Credit for Prior Custody.—A defendant shall be given credit toward
the service of a term of imprisonment for any time he has spent in official
detention prior to the date the sentence commences—
(1) as a result of the offense for which the sentence was imposed; or
(2) as a result of any other charge for which the defendant was arrested after
the commission of the offense for which the sentence was imposed;
that has not been credited against another sentence.

USA v Verkler 21-30098

Cxx

28 U.S. Code § 545 - Residence states^
(a) Each United States attorney shall reside in the district for which he is
appointed,... Each assistant United States attorney shall reside in the
district for which he or she is appointed or within 25 miles thereof...
Pursuant to an order from the Attorney General or his designee, a United
States attorney or an assistant United States attorney may be assigned dual
or additional responsibilities that exempt such officer from the residency
requirement in this subsection for a specific period as established by the
order and subject to renewal.

Federal Rule of Criminal Procedure 3 states, “Rule 8. The Complaint The complaint
is a written statement of the essential facts constituting the offense charged. Except as
provided inRule_4,l. it must be made under oath before a magistrate judge..."

Fed Rule of Criminal Procedure 7. The Indictment and the Information
(a) When Used.
(1) Felony. An offense (other than criminal contempt) must be prosecuted
by an indictment if it is punishable*
(A) by death; or
(B) by imprisonment for more than one year.
(2) Misdemeanor. An offense punishable by imprisonment for one year or
less may be prosecuted in accordance with Rule 58(b)(3),
(b) WAIVING Indictment. An offense punishable by imprisonment for more
than one year may be prosecuted by information if the defendant—in open
court and after being advised of the nature of the charge and of the
defendant’s rights—waives prosecution by indictment.
(c) Nature and Contents.
(1) In General. The indictment or information must be a plain, concise, and
definite written statement of the essential facts constituting the offense
charged and must be signed by an attorney for the government. It need not
contain a formal introduction or conclusion. A count may incorporate by
reference an allegation made in another count. A count may allege that the
means by which the defendant committed the offense are unknown or that
the defendant committed it by one or more specified means. For each count,
the indictment or information must give the official or customary citation of
the statute, rule, regulation, or other provision of law that the defendant is
alleged to have violated. For purposes of an indictment referred to in
USA vVerkler 21-30098

Cxxi

section 3282 of title 18, United States Code, for which the identity of the
defendant is unknown, it shall be sufficient for the indictment to describe
the defendant as an individual whose name is unknown, but who has a
particular DNA profile, as that term is defined in section 3282.

NO ONE IN THE FEDERAL GOVERNMENT HAS AUTHORITY TO ASSIST OR
COMMIT A CRIME, A TORT OR TO LIE OR CONSPIRE AGAINST ANY AMERICAN
Article I Section 2 states, "... The House of Representatives ... shall have the sole
Power of Impeachment ”

Article I Section 3 states, “... The Senate shall have the sole Power to
try all Impeachments... the Party convicted shall nevertheless be liable and
subject to Indictment, Trial, Judgment and Punishment, according to Law.”
That means Congress can remove any member from the government for
committing crimes against Americans and they can still be prosecuted or
sued.
Article I Section 5 states, “... Each House may punish its Members for disorderly
Behaviour, and,... expel a Member.”
Article II Section 4 states, “The President, Vice President and all civil Officers of the
United States, shall be removed from Office on Impeachment for, and Conviction of,
Treason, Bribery, or other high Crimes and Misdemeanors.”
Article III Section 1 states, “...The Judges, both of the supreme and inferior Courts,
shall hold their Offices during good Behaviour," That means they may not continue in their
office if they do not maintain good behavior.
The Third Amendment states, “No Soldier shall, in time of peace be quartered in any
house, without the consent of the Owner, nor in time of war, but in a manner to be
prescribed by law.”
Cxxii

The Fourth Amendment (above) prohibits some crimes, torts and lies.
The Fifth Amendment (above) prohibits some crimes, torts and lies.
The Sixth Amendment states, “In all criminal prosecutions, the
accused shall enjoy the right to a speedy and public trial, by an impartial jury
of the State and district wherein the crime shall have been committed, which
district shall have been previously ascertained by law, and to be informed of
the nature and cause of the accusation; to be confronted with the witnesses
against him; to have compulsory process for obtaining witnesses in his favor,
and to have the Assistance of Counsel for his defence.” It says the ability of
the government to commit crimes, torts or lie against Americans under the
guise of fighting crime.
The Eighth Amendment (above) prohibits some crimes.
The Ninth Amendment states, “The enumeration in the Constitution, of certain
rights, shall not be construed to deny or disparage others retained by the people.” This
provides protection from government crimes, torts or lies from the government that have
been thought of or listed.

The Tenth Amendment states, “10th Amendment
The powers not delegated to the United States by the Constitution, nor prohibited by it to
the States, are reserved to the States respectively, or to the people” Nowhere does the US
Constitution give federal or State government authority to commit a crime, a tort or lie
against an American.

13th Amendment states, Section 1.
Neither slavery nor involuntary servitude, except as a punishment for crime
whereof the party shall have been duly convicted, shall exist within the
United States, or any place subject to their jurisdiction.

USA vVerkler 21-30098

Cxxiii

Section 2.
Congress shall have power to enforce this article by appropriate legislation.

The 14th Amendment Section 1 and 3 state, “All persons born or
naturalized in the United States, and subject to the jurisdiction thereof are
citizens of the United States and of the State wherein they reside. No State
shall make or enforce any law which shall abridge the privileges or
immunities of citizens of the United States; nor shall any State deprive any
person of life, liberty, or property, without due process of law; nor deny to any
person within its jurisdiction the equal protection of the laws.... No person
shall be a Senator or Representative in Congress, or elector of President and
Vice-President, or hold any office, civil or military, under the United States, or
under any State, who, having previously taken an oath, as a member of
Congress, or as an officer of the United States, or as a member of any State
legislature, or as an executive or judicial officer of any State, to support the
Constitution of the United States, shall have engaged in insurrection or
rebellion against the same, or given aid or comfort to the enemies thereof. But
Congress may by a vote of two-thirds of each House, remove such disability,”

18 U.S. Code § 3 states- Accessory after the fact
Whoever, knowing that an offense against the United States has been
committed, receives, relieves, comforts or assists the offender in order to
hinder or prevent his apprehension, trial or punishment, is an accessory after

the feet.
Except as otherwise expressly provided by any Act of Congress, an
accessory after the fact shall be imprisoned not more than one-half the
maximum term of imprisonment or (notwithstanding section 3571) fined not
more than one-half the maximum fine prescribed for the punishment of the
principal, or both; or if the principal is punishable by life imprisonment or
death, the accessory shall be imprisoned not more than 15 years.

18 U.S. Code § 4 - Misprision of felony states^
Whoever, having knowledge of the actual commission of a felony cognizable
by a court of the United States, conceals and does not as soon as possible
make known the same to some judge or other person in civil or military
authority under the United States, shall be fined under this title or
imprisoned not more than three years, or both.

USA vVerkler 21-30098

Cxxiv

18 U.S. Code § 211 - Acceptance or solicitation to obtain appointive
public office
Whoever solicits or receives, either as a political contribution, or for
personal emolument, any money or thing of value, in consideration of the
promise of support or use of influence in obtaining for any person any
appointive office or place under the United States, shall be fined under this
title or imprisoned not more than one year, or both.
Whoever solicits or receives any thing of value in consideration of aiding a
person to obtain employment under the United States either by referring his
name to an executive department or agency of the United States or by
requiring the payment of a fee because such person has secured such
employment shall be fined under this title, or imprisoned not more than one
year, or both. This section shall not apply to such services rendered by an
employment agency pursuant to the written request of an executive
department or agency of the United States.

18 U.S. Code § 241 * Conspiracy against rights
If two or more persons conspire to injure, oppress, threaten, or intimidate
any person in any State, Territory, Commonwealth, Possession, or District in
the free exercise or enjoyment of any right or privilege secured to him by the
Constitution or laws of the United States, or because of his having so
exercised the same....
They shall be fined under this title or imprisoned not more than ten years,
or both* and if death results from the acts committed in violation of this
section or if such acts include kidnapping or an attempt to kidnap,
aggravated sexual abuse or an attempt to commit aggravated sexual abuse,
or an attempt to kill, they shall be fined under this title or imprisoned for any
term of years or for life, or both, or may be sentenced to death.

18 USC § 371 states,- Conspiracy to commit offense or to defraud...
If two or more persons conspire either to commit any offense against the
United States, or to defraud the United States, or any agency thereof in any
manner or for any purpose, and one or more of such persons do any act to
effect the object of the conspiracy, each shall be fined under this title or
imprisoned not more than five years, or both.
If, however, the offense, the commission of which is the object of the
conspiracy, is a misdemeanor only, the punishment for such conspiracy shall
not exceed the maximum punishment provided for such misdemeanor.

USA vVerkler 21-30098

Cxxv

18 U.S. Code § 643 • Accounting generally for public money
Whoever, being an officer, employee or agent of the United States or of any
department or agency thereof, having received public money which he is not
authorized to retain as salary, pay, or emolument, fails to render his accounts
for the same as provided by law is guilty of embezzlement, and shall be fined
under this title or in a sum equal to the amount of the money embezzled,
whichever is greater, or imprisoned not more than ten years,

18 U.S. Code § 645 * Court officers generally
Whoever, being a United States marshal, clerk, receiver, referee, trustee,
or other officer of a United States court, or any deputy, assistant, or employee
of any such officer, retains or converts to his own use or to the use of another
or after demand by the party entitled thereto, unlawfully retains any money
coming into his hands by virtue of his official relation, position or
employment, is guilty of embezzlement and shall, where the offense is not
otherwise punishable by enactment of Congress, be fined under this title or
not more than double the value of the money so embezzled, whichever is
greater, or imprisoned not more than ten years, or both; but if the amount
embezzled does not exceed $1,000, he shall be fined under this title or
imprisoned not more than one year, or both.
It shall not be a defense that the accused person had any interest in such
moneys or fund.

18 U.S. Code § 646 * Court officers depositing registry moneys
Whoever, being a clerk or other officer of a court of the United States, fails
to deposit promptly any money belonging in the registry of the court, or paid
into court or received by the officers thereof, with the Treasurer or a
designated depositary of the United States, in the name and to the credit of
such court, or retains or converts to his own use or to the use of another any
such money, is guilty of embezzlement and shall be fined under this title or
not more than the amount embezzled, whichever is greater, or imprisoned not
more th an ten years, or both; but if the amount embezzled does not exceed
$1,000, he shall be fined under this title or imprisoned not more than one
year, or both.
This section shall not prevent the delivery of any such money upon
security, according to agreement of parties, under the direction of the court.

18 U.S. Code § 648 ■ Custodians, generally, misusing public funds
Whoever, being an officer or other person charged by any Act
of Congress with the safe*keeping of the public moneys, loans, uses, or
USA vVerkler 21-30098

Cxxvi

converts to his own use, or deposits in any bank, including any branch or
agency of a foreign bank (as 9uch terms are defined in paragraphs (l) and (3)
of section 1(b) of the International Banking Act of 1978). or exchanges for
other funds, except as specially allowed by law, any portion of the public
moneys intrusted to him for safe-keeping, is guilty of embezzlement of the
money so loaned, used, converted, deposited, or exchanged, and shall be fined
under this title or in a sum equal to the amount of money so embezzled,
whichever is greater, or imprisoned not more than ten years, or both; but if
the amount embezzled does not exceed $1,000, he shah be fined under this
title or imprisoned not more than one year, or both.
18 USC 872 states, 18 U.S. Code § 872 states, “Extortion by officers or
employees of the United States
Whoever, being an officer, or employee of the United States or any
department or agency thereof, ox representing himself to be or assuming to
act as such, under color or pretense of office or employment commits or
attempts an act of extortion, shall be fined under this title or imprisoned not
more than three years, or both; but if the amount so extorted or demanded
does not exceed $1,000, he shall be fined under this title or imprisoned not
more than one year, or both ”

18 USC 875 states, “18 U.S. Code § 875 - Interstate communications
(a) Whoever transmits in interstate or foreign commerce any communication
containing any demand or request for a ransom or reward for the release of
any kidnapped person, shall be fined under this title or imprisoned not more
than twenty years, or both.
(b) Whoever, with intent to textort from any person, firm, association, or
corporation, any money or other thing of value, transmits in interstate or
foreign commerce any communication containing any threat to kidnap any
person or any threat to injure the person of another, shall be fined under this
title or imprisoned not more than twenty years, or both.
(c) Whoever transmits in interstate or foreign commerce any communication
containing any threat to kidnap any person or any threat to injure the person
of another, shall be fined under this title or imprisoned not more than five
years, or both.
(d) Whoever, with intent to extort from any person, firm, association, or
corporation, any money or other thing of value, transmits in interstate or
foreign commerce any communication containing any threat to injure the
property or reputation of the addressee or of another or the reputation of a
deceased person or any threat to accuse the addressee or any other person of

USA v Verkler 21*30098

Cxxvii

a crime, shall be fined under this title or imprisoned not more than two years,
or both,

18 U.S. Code § 876 states, * Mailing threatening communications
(a) Whoever knowingly deposits in any post office or authorized depository for
mail matter, to be sent or delivered by the Postal Service or knowingly causes
to be delivered by the Postal Service according to the direction thereon, any
communication, with or without a name or designating mark subscribed
thereto, addressed to any other person, and containing any demand or
request for ransom or reward for the release of any kidnapped person, shall
be fined under this title or imprisoned not more than twenty years, or both.
(b) Whoever, with intent to extort from any person any money or other thing
of value, so deposits, or causes to be delivered, as aforesaid, any
communication containing any threat to kidnap any person or any threat to
injure the person of the addressee or of another, shall bo fined under this title
or imprisoned not more than twenty years, or both.
(c) Whoever knowingly so deposits or causes to be delivered as aforesaid, any
communication with or without a name or designating mark subscribed
thereto, addressed to any other person and containing any threat to kidnap
any person or any threat to injure the person of the addressee or of another,
shall be fined under this title or imprisoned not more titan five years, or both.
If such a communication is addressed to a United States judge, a Federal law
enforcement officer, or an official who is covered by section 1114, the
individual shall be fined under this title, imprisoned not more than 10 yeai-s,
or both.
(d) Whoever, with intent to extort from any person any money or other thing
of value, knowingly so deposits or causes to be delivered, as aforesaid, any
communication, with or without a name or designating mark subscribed
thereto, addressed to any other person and containing any threat to injure
the property or reputation of the addressee or of another, or tho reputation of
a deceased person, or any threat to accuse the addressee or any other person
of a crime, shall bo fined under this title or imprisoned not more than two
years, or both. If such a communication is addressed to a United States judge,
a Federal law enforcement officer, or an official who is covered by section
1114, the individual shall be fined under this title, imprisoned not more than
10 years, or both.

USA v Verkler 21-30098

Cxxviii

18 U.S. Code § 880.Receiving the proceeds of extortion
A person who receives, possesses, conceals, or disposes of any money or
other property which was obtained from the commission of any offense under
this chapter that is punishable by imprisonment for more than 1 year,
knowing the same to have been unlawfully obtained, shall be imprisoned not
more than 3 years, fined under this title, or both.

18 U.S. Code § 892 states, - Making extortionate extensions of credit
(a) Whoever makes any extortionate extension of credit, or conspires to do so,
shall be fined under this title or imprisoned not more than 20 years, or both.
(b) In any prosecution under this section, if it is shown that all of the
following factors were present in connection with the extension of credit in
question, there is prima facie evidence that the extension of credit was
extortionate, but this subsection is nonexclusive and in no way limits the
effect or applicability of subsection (a)(1) The repayment of the extension of credit, or the performance of any
promise given in consideration thereof, would he unenforceable, through civil
judicial processes against the debtor
(A) in the jurisdiction within which the debtor, if a natural person, resided or
(B) in every jurisdiction within which the debtor, if other than a natural
person, was incorporated or qualified to do business at the time the extension
of credit was made.
(2) The extension of credit was made at a rate of interest in excess of an
annual rate of 45 per centum calculated according to the actuarial method of
allocating payments made on a debt between principal and interest, pursuant
to which a payment is applied first to the accumulated interest and the
balance is applied to the unpaid principal.
(3) At the time the extension of credit was made, the debtor reasonably
believed that either
(A) one or more extensions of credit by the creditor had been collected or
attempted to be collected by extortionate means, or the nonrepayment thereof
had been punished by extortionate means; or
(B) the creditor had a reputation for the use of extortionate mean9 to collect
extensions of credit or to punish the nonrepayment thereof.
(4) Upon the making of the extension of credit, the total of the extensions of
credit by the creditor to the debtor then outstanding, including any unpaid
interest or similar charges, exceeded $100.
USA Werkler 21-30098

Cxxix

(c) In any prosecution under this section, if evidence has been introduced
tending to show the existence of any of the circumstances described in
subsection (b)(1) or (b)(2), and direct evidence of the actual belief of
the debtor as to the creditor’s collection practices is not available, then for the
purpose of showing the understanding of the debtor and the creditor at the
time the extension of credit was made, the court may in its discretion allow
evidence to be introduced tending to show the reputation as to collection
practices of the creditor in any community of which the debtor was a member
at the time of the extension.

18 U.S. Code § 894 • Collection of extensions of credit by extortionate means
(a) Whoever knowingly participates in any way, or conspires to do so, in the
use of any extortionate means
(1) to collect or attempt to collect any extension of credit, or
(2) to punish any person for the nonrepayment thereof
shall be fined under this title or imprisoned not more than 20 years, or both.
(b) In any prosecution under this section, for the purpose of showing an
implicit threat as a means of collection, evidence may be introduced tending
to show that one or more extensions of credit by the creditor were, to the
knowledge of the person against whom the implicit threat was alleged to
have been made, collected or attempted to be collected by extortionate means
or that the nonrepayment thereof was punished by extortionate means.
(c) In any prosecution under this section, if evidence has been introduced
tending to show the existence, at the time the extension of credit in question
was made, of the circumstances described in section 892(b)(1) or the
circumstances described in section 892(b)(2), and direct evidence of the actual
belief of the debtor as to the creditor’s collection practices is not available,
then for the purpose of showing that words or other means of communication,
shown to have been employed as a means of collection, in fact carried an
express or implicit threat, the court may in its discretion allow evidence to be
introduced tending to show the reputation of the defendant in any community
of which the person against whom the alleged threat was made was a
member at the time of the collection or attempt at collection.

18 U.S. Code § 1201 - Kidnapping
(a) Whoever unlawfully seizes, confines, inveigles, decoys, kidnaps, abducts,
or carries away and holds for ransom or reward or otherwise any person,
except in the case of a minor by the parent thereof when—
USA vVerkler 21-30098

Cxxx

(l) the person is willfully transported in interstate or foreign commerce,
regardless of whether the person was alive when transported across a
State boundary, or the offender travels in interstate or foreign commerce
or uses the mail or any means, facility, or instrumentality of interstate or
foreign commerce in committing or in furtherance of the commission of
the offense;

18 U.S. Code § 1341 * Frauds and swindles
Whoever, having devised or intending to devise any scheme or artifice to
defraud, or for obtaining money or property by means of false or fraudulent
pretenses, representations, or promises, or to sell, dispose of, loan, exchange,
alter, give away, distribute, supply, or furnish or procure for unlawful use any
counterfeit or spurious coin, obligation, security, or other article, or anything
represented to be or intimated or held out to be such counterfeit or spurious
article, for the purpose of executing such scheme or artifice or attempting so to
do, places in any post office or authorized depository for mail matter, any matter
or thing whatever to be sent or delivered by the Postal Service, or deposits or
causes to be deposited any matter or thing whatever to be sent or delivered by
any private or commercial interstate carrier, or takes or receives therefrom, any
such matter or thing, or knowingly causes to be delivered by mail or such
carrier according to the direction thereon, or at the place at which it is directed
to be delivered by the person to whom it is addressed, any such matter or
thing,...

18 U.S. Code § 1346 Definition of “scheme or artifice to defraud”
For the purposes of this chapter, the term “scheme or artifice to defraud”
includes a scheme or artifice to deprive another of the intangible right of honest
services.

18 U.S. Code § 1349 states, “Attempt and conspiracy
Any person who attempts or conspires to commit any offense under this chapter shall be
subject to the same penalties as those prescribed for the offense, the commission of which
was the object of the attempt or conspiracy.

USA vVerkler 21-30098

Cxxxi

18 U.S. Code § 1361 states, ■ Government property or contracts
Whoever willfully injures or commits any depredation against any property of
the United States, or of any department or agency thereof, or any property
which has been or is being manufactured or constructed for the United
States, or any department or agency thereof, or attempts to commit any of
the foregoing offenses, shall be punished as Mows:
If the damage or attempted damage to such property exceeds the sum of
$1,000, by a fine under this title or imprisonment for not more than ten
years, or both; if the damage or attempted damage to such property does not
exceed the sum of $1,000, by a fine under this title or by imprisonment for
not more than one year, or both.

18 U.S. Code § 1506 says “ThSft or alteration of record or process) false bail
Whoever feloniously steals, takes away, alters, falsifies, or otherwise avoids any record,
writ, process, or other proceeding, in any court of the United States, whereby any judgment
is reversed, made void, or does not take effect;...”

18 USA. 1512 which states,
Tampering with a witness, victim, or an informant
(a)(1) Whoever kills or attempts to kill another person, with intent to—
(A) prevent the attendance or testimony of any person in on
official proceeding:
(B) prevent the production of a record, document, of other object, in an
official proceeding; or
(C) prevent the communication by any person to a law enforcement
officer or judge of the United States of information relating to the
commission or possible commission of a Federal offense...
shall be punished as provided in paragraph (3).
(2) Whoever uses physical force or the threat of physical force against any
person, or attempts to do so, with intent to—
(A) influence, delay, or prevent the testimony of any person in an
official proceeding;
(B) cause or induce any person to—
(i) withhold testimony, or withhold a record, document, or
other object, from an official proceeding;
(ii) alter, destroy, mutilate, or conceal an object with intent to
impair the integrity of availability of the object for use in an
USA Werkler 21-30098

Cxxxii

official proceeding;...
(C) hinder, delay, or prevent the communication to a law
enforcement officer or judge of the United States of information
relating to the commission or possible commission of a Federal
offence or violation of conditions of probation, supervised release,
parole, or release pending judicial proceedings;
shall be punished as provided in paragraph (3).
(b) Whoever knowingly uses intimidation, threatens, or corruptly persuades
another person, or attempts to do so, or engages in misleading conduct
toward another person, with intent to—
(1) influence, delay, or prevent the testimony of any person in an official
proceeding;
(2) cause or induce any person to—
(A) withhold testimony, or withhold a record, document, or other object,
from an official proceeding;
(3) hinder, delay, or prevent the communication to a law enforcement
officer or judge of the United States of information relating to the
commission or possible commission of a Federal offense or a violation of
conditions of probation Ill supervised release,., [ll parole, or release
pending judicial proceedings;
shall be fined under this title or imprisoned not more than 20 years, or both.
(c)Whoever corruptly—
(1) alters, destroys, mutilates, or conceals a record, document, or other
object, or attempts to do so, with the intent to impair the object’s integrity
or availability for use in an official proceeding) or
(2) otherwise obstructs, influences, or impedes any official proceeding, or
attempts to do so,
shall be fined under this title or imprisoned not more than 20 years, or both,
(g) In a prosecution for an offense under this section, no state of mind need be
proved with respect to the circumstance—
(1) that the official proceeding before a judge, court, magistrate judge,
grand jury, or government agency is before a judge or court of the United
States, a United States magistrate judge, a bankruptcy judge, a Federal
grand jury, or a Federal Government agency) or
(2) that the judge is a judge of the United States or that the law
enforcement officer is an officer or employee of the Federal Government or
a person authorized to act for or on behalf of the Federal Government or
serving the Federal Government as an adviser or consultant.
(lc) Whoever conspires to commit any offense under this section shall be
subject to the same penalties as those prescribed for the offense the
commission of which was the object of the conspiracy.
USA v Verkler 21-30098

Cxxxiii

18 U.S. Code § 1689 states,

Forced labor

(a) Whoever knowingly provides or obtains the labor or services of a person
by any one of or by any combination of, the following means—
(1) by means of force, threats of force, physical restraint, or threats of
physical restraint to that person or another person;
(2) by means of serious harm or threats of serious harm to that person or
another person;
(3) by means of the abuse or threatened abuse of law or legal process; or
(4) by means of any scheme, plan, or pattern intended to cause the person to
believe that, if that person did not perform such labor or services, that person
or another person would suffer serious harm or physical restraint,
shall be punished as provided under subsection (d).
(b) Whoever knowingly benefits, financially or by receiving anything of value,
from participation in a venture which has engaged in the providing or
obtaining of labor or services by any of the means described in subsection (a),
knowing or in reckless disregard of the fact that the venture has engaged in
the providing or obtaining of labor or services by any of such means, shall be
punished as provided in subsection (d).
(c) In this section;
(1) The term "abuse or threatened abuse of law or legal process” means the
use or threatened use of a law or legal process, whether administrative, civil,
or criminal, in any manner or for any purpose for which the law was not
designed, in order to exert pressure on another person to cause that person to
take some action or refrain from taking some action.
(2) The term "serious harm* means any harm, whether physical or
nonphysical, including psychological, financial, or reputational harm, that is
sufficiently serious, under all the surrounding circumstances, to compel a
reasonable person of the same background and in the same circumstances to
perform or to continue performing labor or services in order to avoid
incurring that harm.
(d) Whoever violates this section shall be fined under this title, imprisoned
not more than 20 years, or both. If death results from a violation of this
section, or if the violation includes kidnaping, an attempt to kidnap,
aggravated sexual abuse, or an attempt to kill, the defendant shall be fined
under this title, imprisoned for any term of years or life, or both.

USA v Verkler 21-30098

Cxxxiv

18 U.S. Code § 1959 * Violent crimes in aid of racketeering activity
(a) Whoever, as consideration for the receipt of, or as consideration for a
promise or agreement to pay, anything of pecuniary value from
an enterprise engaged in racketeering activity, or for the purpose of gaining
entrance to or maintaining or increasing position in an enterprise engaged
in racketeering activity, murders, kidnaps, maims, assaults with a dangerous
weapon, commits assault resulting in serious bodily injury upon, or threatens
to commit a crime of violence against any individual in violation of the laws
of any State or the United States, or attempts or conspires so to do, shall be
punished—
(1) for murder, by death or life imprisonment, or a fine under this title, or
both; and for kidnapping, by imprisonment for any term of years or for life, or
a fine under this title, or both;
(2) for maiming, by imprisonment for not more than thirty years or a fine
under this title, or both;
(3) for assault with a dangerous weapon or assault resulting in serious bodily
injury, by imprisonment for not more than twenty years or a fine under this
title, or both;
(4) for threatening to commit a crime of violence, by imprisonment for not
more than five years or a fine under this title, or both;
(6) for attempting or conspiring to commit murder or kidnapping, by
imprisonment for not more than ten years or a fine under this title, or both;
and
(6) for attempting or conspiring to commit a crime involving maiming, assault
with a dangerous weapon, or assault resulting in serious bodily injury, by
imprisonment for not more than three years or a fine ofIll under this title, or
both.
(b) As used in this section—
(1) "racketeering activity” has the meaning set forth in section 1961 of this
title; and
(2) “enterprise” includes any partnership, corporation, association, or other
legal entity, and any union or group of individuals associated in fact although
not. a legal entity, which is engaged in, or the activities of which affect,
interstate or foreign commerce.

USA v Verkler 21-30098

Cxxxv

18 U.S. Code § 1961 9tates, * Definitions
As used in this chapter—
(D "racketeering activity” means (A) any act or threat involving murder,
kidnapping, gambling, arson, robbery, bribery, extortion, dealing in obscene
matter, or dealing in a controlled substance or listed chemical (as defined in
section 102 of the Controlled Substances Act), which is chargeable
understate law and punishable by imprisonment for more than one year; (B)
any act which is indictable under any of the following provisions of title 18,
United States Code- Section 201 (relating to bribery), section 224 (relating to
sports bribery), sections 471, 472, and 473 (relating to counterfeiting), section
669 (relating to theft from interstate shipment) if the act indictable under
section 659 is felonious, section 664 (relating to embezzlement from pension
and welfare funds), sections 891-894 (relating to extortionate credit
transactions), section 1028 (relating to fraud and related activity in
connection with identification documents), section 1029 (relating to fraud and
related activity in connection with access devices), section 1084 (relating to
the transmission of gambling information), section 1341 (relating to mail
fraud), section 1343 (relating to wire fraud), section 1344 (relating to
financial institution fraud), section 1361 (relating to fraud in foreign labor
contracting), section 1426 (relating to the procurement of citizenship or
nationalization unlawfully), section 1426 (relating to the reproduction of
naturalization or citizenship papers), section 1427 (relating to the sale of
naturalization or citizenship papers), sections 1461-1466 (relating to obscene
matter), section 1503 (relating to obstruction ofjustice), section 1610
(relating to obstruction of criminal investigations), section 1611 (relating to
the obstruction of State or local law enforcement), section 1612 (relating to
tampering with a witness, victim, or an informant), section 1513 (relating to
retaliating against a witness, victim, or an informant), section 1542 (relating
to false statement in application and use of passport), section 1543 (relating
to forgery or false use of passport), section 1544 (relating to misuse of
passport), section 1646 (relating to fraud and misuse of visas, permits, and
other documents), sections 1581-1692 (relating to peonage, slavery, and
trafficking in persons)..[ll sections 1831 and 1832 (relating to economic
espionage and theft of trade secrets), section 1951 (relating to interference
with commerce, robbery, or extortion), section 1962 (relating to racketeering),
section 1953 (relating to interstate transportation of wagering
paraphernalia), section 1954 (relating to unlawful welfare fund payments),
section 1955 (relating to the prohibition of illegal gambling businesses),
section 1956 (relating to the laundering of monetary instruments), section
1957 (relating to engaging in monetary transactions in property derived from
specified unlawful activity), section 1958 (relating to use of interstate
commerce facilities in the commission of murder*for*hire), section 1960
(relating to illegal money transmitters), sections 2251, 2251A, 2262, and 2260
(relating to sexual exploitation of children), sections 2312 and 2313 (relating
USA vVerkler 21-30098

Cxxxvi

to interstate transportation of stolen motor vehicles), sections 2314 and 2315
(relating to interstate transportation of stolen property), section 2318
(relating to trafficking in counterfeit labels for phonorecords, computer
programs or computer program documentation or packaging and copies of
motion pictures or other audiovisual works), section 2319 (relating to
criminal infringement of a copyright), section 2319A (relating to
unauthorized fixation of and trafficking in sound recordings and music videos
of live musical performances), section 2320 (relating to trafficking in goods or
services bearing counterfeit marks), section 2321 (relating to trafficking in
certain motor vehicles or motor vehicle parts), sections 2341-2346 (relating to
trafficking in contraband cigarettes), sections 2421-24 (relating to white
slave traffic), sections 175-178 (relating to biological weapons), sections 229229F (relating to chemical weapons), section 831 (relating to nuclear
materials), (C) any act which is indictable under title 29, United States Code,
section 186 (dealing with restrictions on payments and loans to labor
organizations) or section 501(c) (relating to embezzlement from union funds),
(D) any offense involving fraud connected with a case under title 11 (except a
case under section 157 of this title), fraud in the sale of securities, or the
felonious manufacture, importation, receiving, concealment, buying, selling,
or otherwise dealing in a controlled substance or listed chemical (as defined
in section 102 of the Controlled Substances Act), punishable under any law of
the United States. (E) any act which is indictable under the Currency and
Foreign Transactions Reporting Act. (F) any act which is indictable under
the Immigration and Nationality Act, section 274 (relating to bringing in and
harboring certain aliens), section 277 (relating to aiding or assisting certain
aliens to enter the United States), or section 278 (relating to importation of
alien for immoral purpose) if the act indictable under such section of such Act
was committed for the purpose of financial gain, or (G) any act that is
indictable under any provision listed in section 2332b(g)(5)(B);
(2) “State" means any State of the United States, the District of Columbia,
the Commonwealth of Puerto Rico, any territory or possession of the
United States, any political subdivision, or any department, agency, or
instrumentality thereof
(3) “person” includes any individual or entity capable of holding a legal or
beneficial interest in property;
(4) “enterprise” includes any individual, partnership, corporation, association,
or other legal entity, and any union or group of individuals associated in fact
although not a legal entity;
(5) “pattern of racketeering activity'1 requires at least two acts of racketeering
activity, one of which occurred after the effective date of this chapter and the
last of which occurred within ten years (excluding any period of
imprisonment) after the commission of a prior act of racketeering activity;
USA v Verkler 21-30098

Cxxxvii

(6) “unlawful debt" means a debt (A) incurred or contracted in gambling
activity which was in violation of the law of the United States, a State or
political subdivision thereof or which is unenforceable under State or Federal
law in whole or in part as to principal or interest because of the laws relating
to usury, and (B) which was incurred in connection with the business of
gambling in violation of the law of the United States, a State or political
subdivision thereof, or the business of lending money or a thing of value at a
rate usurious under State or Federal law, where the usurious rate is at least
twice the enforceable rate)
(7) “racketeering investigator” means any attorney or investigator so
designated by the Attorney General and charged with the duty of enforcing or
carrying into effect this chapter)
(8) “racketeering investigation” means any inquiry conducted by
anv racketeering investigator for the purpose of ascertaining whether
anv person has been involved in any violation of this chapter or of any final
order, judgment, or decree of any court of the United States, duly entered in
any case or proceeding arising under this chapter)
(9) “documentary material” includes any book, paper, document, record,
recording, or other material) and
(10) “Attorney General” includes the Attorney General of the
United States, the Deputy Attorney General of the United States, the
Associate Attorney General of the United States, any Assistant Attorney
General of the United States, or any employee of the Department of
Justice or any employee of any department or agency of the United States so
designated by the Attorney General to carry out the powers conferred on
the Attorney General by this chapter. Any department or agency so
designated may use in investigations authorized by this chapter either the
investigative provisions of this chapter or the investigative power of such
department or agency otherwise conferred by law.

18 U.S. Code § 1962 - Prohibited activities
(a) It shall be unlawful for any person who has received any income derived,
directly or indirectly, from a pattern of racketeering activity or through
collection of an unlawful debt in which such person has participated as a
principal within the meaning of section 2, title 18, United States Code, to use
or invest, directly or indirectly, any part of such income, or the proceeds of
such income, in acquisition of any interest in, or the establishment or
operation of, any enterprise which is engaged in, or the activities of which
affect, interstate or foreign commerce. A purchase of securities on the open
market for purposes of investment, and without the intention of controlling or
participating in the control of the issuer, or of assisting another to do so, shall
USA vVerkler 21-30098

Cxxxviii

not be unlawful under this subsection if the securities of the issuer held by
the purchaser, the members of his immediate family, and his or their
accomplices in any pattern or racketeering activity or the collection of
an unlawful debt after such purchase do not amount in the aggregate to one
percent of the outstanding securities of any one class, and do not confer,
either in law or in fact, the power to elect one or more directors of the issuer.
(b) It shall be unlawful for any person through a pattern of racketeering
activity or through collection of an unlawful debt to acquire or maintain,
directly or indirectly, any interest in or control of anv enterprise which is
engaged in, or the activities of which affect, interstate or foreign commerce.
(c) It shall be unlawful for any person employed by or associated with
any enterprise engaged in, or the activities of which affect, interstate or
foreign commerce, to conduct or participate, directly or indirectly, in the
conduct of such enterprise’s affairs through a pattern of racketeering
activity or collection of unlawful debt.
(d) It shall be unlawful for any person to conspire to violate any of the
provisions of subsection (a), (b), or (c) of this section.

18 U.S. Code § 2071 states, “* Concealment, removal, or mutilation...
(a) Whoever willfully and unlawfully conceals, removes, mutilates,
obliterates, or destroys, or attempts to do so, or, with intent to do so takes
and carries away any record, proceeding, map, book, paper, document, or
other thing, filed or deposited with any clerk or officer of any court of the
United States, or in any public office, or with any judicial or public officer of
the United States, shall be fined under this title or imprisoned not more than
three years, or both.
(b) Whoever, having the custody of any such record, proceeding, map, book,
document, paper, or other thing, willfully and unlawfully conceals, removes,
mutilates, obliterates, falsifies, or destroys the same, shall be fined under
this title or imprisoned not more than three years, or both; and shall forfeit
his office and be disqualified from holding any office under the United States.
As used in this subsection, the term “office” does not include the office held by
any person as a retired officer of the Armed Forces of the United States.

18 U.S. Code § 2113 states, * Bank robbery and incidental crimes
(a) Whoever, by force and violence, or by intimidation, takes, or attempts to
take, from the person or presence of another, or obtains or attempts to obtain
by extortion any property or money or any other thing of value belonging to,
USA vVerkler 21-30098

Cxxxix

or in the care, custody, control, management, or possession of,
any bank, credit union, or any savings and loan association; or
Whoever enters or attempts to enter any bank, credit union, or any savings
and loan association, or any building used in whole or in part as
a bank, credit union, or as a savings and loan association, with intent to
commit in such bank, credit union, or in such savings and loan association, or
building, or part thereof, so used, any felony affecting such bank, credit
union, or such savings and loan association and in violation of any statute of
the United States, or any larceny—
Shall be fined under this title or imprisoned not more than twenty years, or
both.
(b) Whoever takes and carries away, with intent to steal or purloin, any
property or money or any other thing of value exceeding $1,000 belonging to,
or in the care, custody, control, management, or possession of
any bank, credit union, or any savings and loan association, shall be fined
under this title or imprisoned not more than ten years, or both; or
Whoever takes and carries away, with intent to steal or purloin, any property
or money or any other thing of value not exceeding $1,000 belonging to, or in
the care, custody, control, management, or possession of any bank, credit
union, or any savings and loan association, shall be fined under this title or
imprisoned not more than one year, or both.
(c) Whoever receives, possesses, conceals, stores, barters, sells, or disposes of
any property or money or other thing of value which has been taken or stolen
from a bank, credit union, or savings and loan association in violation of
subsection (b), knowing the same to be property which has been stolen shall
be subject to the punishment provided in subsection (b) for the taker.
(d) Whoever, in committing, or in attempting to commit, any offense defined
in subsections (a) and (b) of this section, assaults any person, or puts in
jeopardy the life of any person by the use of a dangerous weapon or device,
shall be fined under this title or imprisoned not more than twenty*five years,
or both.
(e) Whoever, in committing any offense defined in this section, or in avoiding
or attempting to avoid apprehension for the commission of such offense, or in
freeing himself or attempting to free himself from arrest or confinement for
such offense, kills any person, or forces any person to accompany him without
the consent of such person, shall be imprisoned not less than ten years, or if
death results shall be punished by death or life imprisonment.
(0 As used in this section the term “bank” means any member bank of
the Federal Reserve System, and any bank, banking association, trust
company, savings bank, or other banking institution organized or operating
under the laws of the United States, including a branch or agency of a
foreign bank (as such terms are defined in paragraphs (1) and (3) of section
USA vVerkter 21-30098

Cxxxx

1(b) of the International Banking Act of 1978). and any institution the
deposits of which are insured by the Federal Deposit Insurance Corporation.
(g) As used in this section the term “credit union” means any Federal credit
union and any State-chartered credit union the accounts of which are insured
by the National Credit Union Administration Board, and any “Federal credit
union” as defined in section 2 of the Federal Credit Union Act. The
term “State-chartered credit union” includes a credit union chartered under
the laws of a State of the United States, the District of Columbia, or any
commonwealth, territory, or possession of the United States.
(h) As used in this section, the term “savings and loan association” means—
(1) a Federal savings association or State savings association (as defined in
section 3(b) of the Federal Deposit Insurance Act (12 U.S.C, 1813(b))) having
accounts insured by the Federal Deposit Insurance Corporation; and
(2) a corporation described in section 3(b)(1)(C) of the Federal Deposit
Insurance Act (12 U.S.C, 1813(b)(1)(C)) that is operating under the laws of
the United States.

Federal Rule of Criminal Procedure 49 9ays
Serving and Filing Papers
(b) Filing.
(5) Acceptance by the Clerk. The clerk must not refuse to file a paper solely
because it is not in the form prescribed by these rules or by a local rule or
practice.

Federal Rule of Appellate Procedure Rule 25 says,
Filing and Service
(a) Filing.
(3) Filing a Motion with a Judge. If a motion requests relief that may be
granted by a single judge, the judge may permit the motion to be filed with
the judge! the judge must note the filing date on the motion and give it to the
clerk.
(4) Clerk's Refusal of Documents. The clerk must not refuse to accept for
filing any paper presented for that purpose solely because it is not presented
in proper form as required by these rules or by any local rule or practice.

USA v Verkler 21-30098

Cxxxxi

1

CIRCUIT RULE 27-9. MOTIONS TO DISMISS CRIMINAL APPEALS 27-9. L
Voluntary Dismissals Motions or stipulations for voluntary dismissals of criminal appeals
shall, if made or joined in by counsel for appellant, be accompanied by appellant's written
consent thereto, or counsel’s explanation of why appellant’s consent was not obtained

USA vVerkler 21-30098

Cxxxxii

